<html>
<title> - IRS: TIGTA UPDATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                           IRS: TIGTA UPDATE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                           Serial No. 114-24

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-249 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
 
 
 
 
 
 
 
 
 
 
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
    Henry Kerner, Deputy Director for Oversight and Inverstigations
                        Melissa Beaumont, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2015................................     1

                               WITNESSES

The Hon. J. Russell George, Inspector General, Treasury Inspector 
  General for Tax Administration
    Oral Statement...............................................     5
Mr. Timothy P. Camus, Deputy Inspector General for 
  Investigations, Treasury Inspector General for Tax 
  Administration
    Oral Statement...............................................     5
    Written Statement............................................     9

                                APPENDIX

Article from the National Review: ``Yes, There is Reason to be 
  Suspicious About the Timing of Lois Lerner's Hard Drive Crash''    52
Emails from TIGTA................................................    55
Article from the Washington Post: ``The Letter That Supposedly 
  led to the Crash of Lois Lerner's hard Drive''.................    56
Questions for the Record to Timothy Camus, TIGTA from Rep. 
  Connolly.......................................................    61
Questions for the Record to J. Russell George, TIGTA from Rep. 
  Connolly.......................................................    69

 
                           IRS: TIGTA UPDATE

                              ----------                              


                      Thursday, February 26, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The Committee met, pursuant to notice, at 7:40 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the Committee) presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, DesJarlais, Gowdy, Farenthold, Massie, Meadows, 
DeSantis, Mulvaney, Buck, Walker, Hice, Carter, Grothman, Hurd, 
Palmer, Cummings, Maloney, Lynch, Connolly, Cartwright, 
Duckworth, Kelly, Lawrence, Lieu, Plaskett, DeSaulnier, Boyle, 
and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The Internal Revenue Service, the IRS--perhaps no other 
agency, no other institution in our government causes more 
fear, more concern, more distress, or outright panic at the 
mere mention of their name than the IRS.
    Entanglement with the IRS is never good. Most Americans 
work hard, pay their taxes, and just want to live a life free 
of harassment. And most of the IRS employees are good, decent, 
hardworking, patriotic people doing a tough job working for the 
government and are honest in their dealings, but, 
unfortunately, not all of them.
    Nearly 2 years ago, the Treasury Inspector General for Tax 
Administration, often referred to as ``TIGTA,'' did an audit 
that confirmed what many on this committee had feared and 
heard: The IRS was targeting and delaying the applications for 
501(c)(4) status of conservative nonprofit organizations 
because of their political beliefs.
    The IRS was on the lookout for applications that focused on 
the national debt, ``criticized how the country was run,'' or 
that sought to educate the public on how to, ``make America a 
better place to live.''
    These were conservatives trying to play by the rules, but 
some in the IRS didn't want them in the game. They didn't even 
want them to have a voice.
    When it was first revealed that the IRS was targeting 
Americans and suppressing their First Amendment rights because 
of their political beliefs, President Obama said this, ``If, in 
fact, IRS personnel engaged in the kind of practices that have 
been reported on and were intentionally targeting conservative 
groups, then that is outrageous and there is no place for it. 
And they have to be held fully accountable, because the IRS, as 
an independent agency, requires absolute integrity, and the 
people have to have confidence that they are applying the laws 
in a nonpartisan way.''
    I agree with the President. He was absolutely and totally 
right.
    But, sometime right before the Super Bowl rolled around, 
before any of the investigations were complete, the President 
concluded there was, ``not even a smidgen of corruption.'' I 
have no idea how the President came to such a definitive 
conclusion without all the facts, but he obviously sent a 
signal as to how he would like this to be concluded.
    On the one hand, the President has come to a conclusion, 
and, on the other hand, there's an ongoing investigation by the 
Inspector General and the Department of Justice.
    But Congress has a role. As the new chairman of the 
Committee, I thought it would be appropriate to get an update 
on the investigation from the Inspector General. I want us to 
focus on the facts, wherever they may lead us.
    And, thus far, the IRS, and specifically its commissioner, 
has given us a lot of different answers to some fairly simple 
questions.
    The Oversight Committee subpoenaed the IRS in August 2013 
seeking emails from Lois Lerner as well as others involved in 
the targeting. Months later, we did not have all the Lois 
Lerner emails. In an Oversight hearing on March 26, 2014, 
Commissioner Koskinen testified under oath that he had all the 
emails and he would produce all the emails.
    Yet, on June 13, 2014, the IRS sent a letter to the Senate 
Finance stating a multiyear tranche of Lois Lerner's emails had 
been destroyed. A June 13, 2014, letter sent to Senate Finance 
said, ``IRS confirmed the backup tapes from 2011 no longer 
exist because they've been recycled pursuant to the IRS normal 
policy.''
    June 20, 2014, before Ways and Means, Chairman Camp said, 
``Your letter describes the Lois Lerner emails as being 
unrecoverable,'' Commissioner Koskinen: ``Correct.''
    February 11, 2015, in an Oversight hearing, Mr. DeSantis of 
Florida says, ``You made the effort. You were not cavalier 
about this. You made the effort to find what the Committee 
wanted.'' Mr. Koskinen: ``Yes.''
    The IRS Commissioner has said they went to, ``great 
lengths'' and made extraordinary efforts to recover the emails. 
This is but a small sampling of the Commissioner's definitive 
and precise Statements about the missing emails. Yet I believe 
what we will hear this evening is far different than we were 
led to believe.
    To the men and women in the Inspector General office, we 
cannot thank you enough for your hard work, the long days that 
you're working to get the information to the American public 
and for this committee.
    We look ultimately to reading the final report, but it is 
appropriate to give an update today, and so we appreciate you 
being here.
    With that, I will yield back and recognize the gentleman 
from Maryland, the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to take a moment to commend you for the way the 
Committee has been running since you became chairman. You have 
shown tremendous respect for our side, and I really appreciate 
that. And that goes not only for you but your staff, and I 
appreciate everything that they've done to work with us. 
Everyone notices the more collegial and collaborative 
atmosphere on our committee, and that is due to your efforts 
and the tone you have set.
    Mr. Chairman, there are certainly issues we're going to 
disagree on, and today's hearing is one of those issues. But we 
take your words to heart, and we will disagree without being 
disagreeable.
    With respect to today's hearing, I believe it is premature. 
Two days ago, Mr. Camus, who will be testifying in a few 
moments with the Inspector General, told our staff, said their 
investigation is not finished, that their report is not done, 
and that they will not be able to fully answer many of the 
questions Members have at this time.
    He provided our staffs with some information about the 
status of their efforts to recover additional emails from Ms. 
Lerner, but he cautioned us not to discuss those details 
publicly while their investigation's still ongoing. Based on 
this request, it seems that the best course of action would be 
to have the Inspector General come back when his report is 
complete so that we can discuss it fully.
    Nevertheless, since we are here, I will make just three 
points.
    First, according to the Inspector General's previous work, 
the emails that were lost when Ms. Lerner's hard drive crashed 
were from before Ms. Lerner discovered that inappropriate 
criteria was being used by IRS employees in Cincinnati. Ms. 
Lerner's computer crashed on June 13, 2011, but she was not 
informed until June 29, 2011, that IRS employees were using 
inappropriate criteria to screen tax-exempt applicants.
    That is according to a report issued by the Inspector 
General in May 2013, more than a year and a half ago. According 
to the same report, after Ms. Lerner discovered what was going 
on, she, ``immediately directed that the criteria be changed.''
    Second, the Inspector General has identified no evidence to 
us that the White House directed this activity. Despite many 
claims by Republicans, there is simply no evidence after nearly 
2 years of investigating to support this wholly unsubstantiated 
conspiracy theory.
    Third, the Inspector General has identified no evidence to 
us that Ms. Lerner intentionally crashed her computer. To the 
contrary, all of the evidence we have obtained, including 
contemporaneous emails sent at the time, indicates that her 
computer crashed due to technological problems. And nothing we 
have learned since the Inspector General issued his previous 
report contradicts these findings.
    We have also learned nothing since that time to contradict 
the account of the self-described, ``conservative Republican,'' 
screening group manager in Cincinnati, who was interviewed by 
this committee on June 6, 2013. He Stated that he and his 
employees were motivated only by a desire to efficiently group 
a large number of similar cases rather than by any political 
bias.
    Let me conclude by putting some additional facts on the 
record.
    Today's hearing is the 21st hearing our committee has held 
on these issues. This is the fourth time the Inspector General 
has testified before us on this subject. The Commissioner of 
the IRS, Mr. Koskinen, has testified before us six times on 
these topics, not counting many additional appearances before 
other committees.
    This committee has conducted more than 50 transcribed 
witness interviews on these issues. The IRS has produced more 
than 1 million pages of documents on this topic. At its peak, 
the IRS had more than 250 employees responding to these 
inquiries, and they dedicated more than 150,000 hours of work 
effort to address our concerns.
    At the end of last year, the IRS reported spending 
approximately $20 million responding to congressional 
inquiries. Twenty million dollars is an enormous amount of 
money. That total does not include the amounts we've spent here 
on this committee. It does not include the amounts numerous 
other committees have been spent.
    And so I conclude by saying it does not include the amounts 
other agencies have spent, including Department of Justice, the 
Federal Elections Commission, or the Securities and Exchange 
Commission. And it does not include the amounts the Inspector 
General has spent and continues to spend to this day.
    Going forward, it is my sincere hope that we will work in a 
bipartisan manner on hearings that further our shared goals of 
benefiting the American people.
    And, with that, I yield back.
    Chairman Chaffetz. Thank you.
    I'll hold the record open for 5 legislative days for any 
Member who would like to submit a written Statement.
    We'll now recognize our panel of witnesses. We're pleased 
to welcome the Honorable J. Russell George, Inspector General 
at the Treasury Inspector General for Tax Administration; and 
Mr. Tim Camus, Deputy Inspector General for Investigations with 
the Treasury Inspector General for Tax Administration.
    We welcome you both.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. If will please rise about raise your right 
hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    We understand you may have one Statement, as opposed to two 
5-minutes, so we'll be very generous on your time. Feel free to 
take as much time as you need to make this--understanding that 
there will be one opening Statement.
    Mr. George. Well, actually, I have a very brief opening 
Statement and then will defer to Mr. Camus.
    Chairman Chaffetz. Very good. Please proceed.

                       WITNESS STATEMENTS

            STATEMENT OF THE HON. J. RUSSELL GEORGE

    Mr. George. Chairman Chaffetz, Ranking Member Cummings, 
members of the Committee, at the Committee's request, we're 
here to discuss the progress of our efforts to recover former 
IRS Exempt Organizations Unit Director Lois Lerner's missing 
emails.
    With me, again, is Deputy Inspector General for 
Investigations Tim Camus, who is leading TIGTA's efforts into 
this matter, which was requested by the Senate Finance 
Committee.
    Our objective this evening is to provide you with as much 
information as possible on the progress of our email recovery 
efforts without compromising the integrity of our ongoing 
investigation into the circumstances surrounding the IRS's 
losses of data and hard-drive crashes.
    Tonight's testimony is a snapshot of what we know today. 
Given an email recovery undertaking such as this, it is 
important to note that the facts and status may frequently 
change as we perform further analysis of data and conduct 
additional interviews.
    As a result, I ask that you understand that our testimony 
this evening is a progress report. We have not reached any 
conclusions, and the information we provide today may, in fact, 
change before we complete our ongoing investigation.
    And, with that, I will now turn to Mr. Camus to provide a 
detailed discussion on the progress of our search for the 
missing emails.
    Chairman Chaffetz. Thank you.
    Mr. Camus?

                  STATEMENT OF TIMOTHY P. CAMUS

    Mr. Camus. Chairman Chaffetz, Ranking Member Cummings, and 
members of the full committee, I've been requested to come here 
today to provide an update on my agency's efforts thus far in 
attempting to recover the missing emails of former IRS employee 
Lois Lerner.
    On June 13, 2014, in a letter to the Senate Finance 
Committee, the IRS reported that, as it was completing its 
document production for Congress concerning allegations that 
the IRS targeted certain 501(c)(4) applicants, the IRS realized 
that the production of the emails of Lois Lerner, the former 
Director of IRS Exempt Organizations Division, had gaps in the 
email production.
    The IRS reported that, in its attempt to find missing 
emails, they realized that in June 2011 Ms. Lerner's IRS laptop 
computer suffered a hard-drive crash, and, therefore, some of 
her emails could not be recovered.
    The following Monday, on June 16, 2014, TIGTA initiated an 
investigation into the circumstances surrounding the missing 
emails and the hard-drive crash.
    One week later, on June 23, 2014, TIGTA received a letter 
from then-Chairman Ron Wyden and then-Ranking Member Orrin 
Hatch of the Senate Finance Committee that requested TIGTA to 
formally investigate the matter, including to, ``perform its 
own analysis of whether any data can be salvaged and produced 
to the Committee.''
    The circumstances surrounding the loss of data, the hard-
drive crash, and the manner in which IRS handled its electronic 
media are still under investigation. However, we have 
periodically updated certain committees of Congress, including 
this committee, concerning our progress in recovering emails. 
But we have not discussed the investigation itself.
    There are two parts of our mission here. One part is 
attempting to recover the emails, and the second part is to 
investigate the circumstances surrounding the missing email.
    Until the investigation is completed, the facts and 
circumstances as we understand them can and have changed on a 
daily basis. To avoid speculating and reaching conclusions that 
later turn out to be false, as investigators, we avoid drawing 
any conclusions until all of the facts are in. I owe it to the 
American people to ensure that we continue to thoroughly and 
impartially investigate this matter, gathering all of the facts 
and evidence in order to get to the truth.
    That said, at this time, I cannot provide any information 
on the investigation surrounding the IRS's loss of the data and 
hard-drive crash, as that could negatively impact our ability 
to complete the investigation as well as raise questions into 
the integrity of our investigative process. But, at this time, 
I will provide a progress report on our efforts to recover 
missing emails.
    The IRS manages its email for its 91,000 employees by 
routing the email through Microsoft Exchange Servers that are 
backed up periodically using backup tapes. These Microsoft 
Exchange Servers, also referred to as email servers, are 
comprised of hundreds of hard drives that are placed into 
server racks.
    Up until May 2011, the email server that handled Lois 
Lerner's email traffic was located in New Carrollton, Maryland, 
Federal Building. During 2011, the IRS migrated from the email 
server at New Carrollton to a new email server located at the 
IRS's Martinsburg, West Virginia, Computing Center.
    After the IRS migrated its email system to Martinsburg, the 
IRS turned off the email server at New Carrollton. However, the 
server was left in place, possibly as a precautionary measure 
should the new email servers at Martinsburg fail. IRS employees 
reported that the New Carrollton email server hard drives were 
later removed from the server, erased, and destroyed.
    On June 30, 2014, TIGTA demanded that the IRS provide all 
backup tapes used to back up Ms. Lerner's IRS email account--
specifically, all backup tapes used for emails during the time 
period of January 1, 2008, through December 31, 2011. These 
date ranges were selected to ensure that we obtained any 
overlap emails or accounted for midyear equipment changes.
    As a result of this demand, on July 1, 2014, the IRS 
identified the 744 backup tapes that met this criterion, and 
TIGTA took possession of all of the identified 744 backup 
tapes.
    With regard to 9 of the 744 backup tapes, based on how they 
were configured in the backup machine, the IRS was unable to 
determine the dates they were used. Because of this, IRS 
technicians believed it was possible that these nine tapes had 
been untouched for years and, thus, could contain clear data 
relevant to the investigation.
    Because TIGTA did not have the unique and necessary 
hardware, these nine tapes were provided to the Federal Bureau 
of Investigation in order to determine if the tapes contained 
any data and, if they did, to retrieve it. After the FBI 
analyzed the nine tapes and validated their equipment by 
reviewing other random backup tapes, they reported their 
equipment was functioning properly and they reported the nine 
tapes were, in fact, blank.
    TIGTA then provided those same nine tapes to a recognized 
industry leader on electronic data recovery, and they confirmed 
the nine tapes were, in fact, blank.
    After confirming these initial 9 tapes were blank and 
fearing that the remaining 735 tapes were overwritten, TIGTA 
interviewed the IRS email expert and identified the specific 
backup tapes that would have contained the earliest copies of 
Lois Lerner's email box.
    The backup tapes consisted of five sets of tapes. These 
five backup sets were created sequential weeks from November 
20, 2012, through December 25 of 2012. The five backup sets 
were expected to produce a total of five separate copies of 
Lois Lerner's email boxes or one copy for each week of the 
backup.
    We hand-carried three of the five sets of these backup 
tapes to the industry expert for data recovery and extraction, 
and, after their examination and extraction of data, they 
provided TIGTA with the Exchange data base files from this set 
of tapes.
    On November 13 of 2014, TIGTA searched the data base files 
and identified the first Lois Lerner email box. This email box 
contained Lois Lerner emails that date back as far as 2001. The 
result of this effort validated that the tapes have not been 
overwritten, and they contained emails that are relevant to the 
requested time-range search for emails.
    TIGTA then processed the remaining five backup sets for a--
the relevant requested--I'm sorry. TIGTA then processed the 
remaining sets of backup tapes in the same manner, later 
finding that each of the five backup sets contained one Lois 
Lerner email box, for a total of five email boxes, exactly as 
expected.
    At the conclusion of this process, TIGTA identified 79,840 
Lois Lerner emails, of which almost 60 percent were duplicates. 
Removing the duplicates resulted in 32,774 Lois Lerner unique 
emails.
    It is critically important to note that these 32,774 emails 
need to be compared with the emails and documents the IRS has 
already produced to Congress in order to determine if there are 
any newly identified emails. Currently, we are finalizing the 
procurement of the software to accomplish this match.
    As I noted earlier in my testimony, the IRS email system 
routes email messages through email servers that are comprised 
of hundreds of hard drives. I just completed my testimony about 
the status of our examination of the backup tapes associated 
with the email system, and now I want to discuss the status of 
the hard drives that were in the email server in May 2011, 1 
month prior to when Lois Lerner's laptop hard drive crashed.
    On July 11 of 2014, TIGTA discovered that the hard drives 
from the decommissioned New Carrollton email server were not 
destroyed as previously reported by the IRS. On the same day, 
TIGTA secured the 760 hard drives that are believed to be part 
of the old New Carrollton email server.
    TIGTA conducted a preliminary examination of the limited 
selection of hard drives, and we determined that, based on the 
information that could be seen from these hard drives, these 
drives are more than likely the email server drives that 
processed Lois Lerner's emails in 2011 and prior.
    It is important to note that the email servers process and 
keep copies of email traffic on hundreds of drives that are 
specifically positioned in server racks. The IRS did not retain 
a copy of the layout indicating where each of the specific hard 
drives was positioned in the racks. Without understanding the 
exact order in which the hard drives were placed in the server 
racks, finding any complete and relevant emails would be very 
difficult and labor-intensive, if not impossible. In addition, 
if any of the hard drives are damaged, it could potentially be 
impossible to recover any useable emails.
    We recently determined that we were unable to do anything 
further with the hard drives, and we have initiated the process 
to contract for an initial feasibility analysis of the 760 hard 
drives by a recognized industry expert in electronic data 
recovery.
    Less than 2 weeks ago, we also learned that there may have 
been backup tapes older than the original 744 backup tapes we 
obtained in July 2014. We have taken possession of an 
additional 424 tapes, and we are in the early stages of 
understanding if they have been erased and if any of these 
older tapes contain emails or data of interest to the 
investigation.
    In summary, to date, we have found 32,774 unique emails 
that were backed up from Lois Lerner's email box. We are in the 
process of comparing these emails to what the IRS has already 
produced to Congress to determine if we did, in fact, recover 
any new emails. We also are in the process of having the email 
server hard drives analyzed to determine if there are any 
readable emails that can be recovered from these hard drives. 
And, finally, we are continuing to determine if there are any 
other sources that may contain Lois Lerner emails.
    As I noted earlier, this is an ongoing investigation, and I 
have provided the information that I believe will not hinder 
our ability to continue our investigation, while simultaneously 
providing the Congress with the progress on the email search.
    Thank you.
    Chairman Chaffetz. Thank you.
    [Prepared Statement of Mr. Camus follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. I'll now recognize myself for 5 minutes.
    Mr. Camus, from the time you started to try to find the 
tapes that contained the emails, how long did it actually take 
you to find them?
    Mr. Camus. We started the process when we opened the 
investigation. We obtained the backup tapes June 30. And by 
November 13, I believe it was, was the first time we saw Lois 
Lerner emails.
    Chairman Chaffetz. But from the time you sought to go find 
the emails to--the tapes to the time you actually got to the 
place in West Virginia, how long did that take?
    Mr. Camus. Literally about 2 weeks.
    Chairman Chaffetz. So, despite everything that the IRS 
said, from the time you started to the time you found them was 
about 2 weeks.
    Mr. Camus. Correct.
    Chairman Chaffetz. When you showed up and talked to the IT 
people and said, well, what's happened here, what did they tell 
you?
    Mr. Camus. They cooperated and answered our questions 
fully.
    Chairman Chaffetz. Had anybody ever asked them for the 
tapes?
    Mr. Camus. No.
    Chairman Chaffetz. So we send a subpoena, we send letters, 
we have hearings, we hear all kinds of excuses from the IRS: 
They can't have them, they're recycled, they've been destroyed, 
they're not available, we can't find--I mean, every excuse you 
can have under the sun.
    You start; you find them in 2 weeks. And then when you go 
talk to the IT people who are there in charge of them, they 
told you that they were never even asked for them. Is that 
correct?
    Mr. Camus. That's correct.
    Chairman Chaffetz. Are there potentially even more tapes?
    Mr. Camus. Well, we believe there may be additional tapes 
that we just learned of 2 weeks ago.
    Chairman Chaffetz. Are you investigating any potential 
criminal activity?
    Mr. Camus. The entire matter continues to be under active 
investigation, yes, sir.
    Chairman Chaffetz. For potential criminal activity?
    Mr. Camus. Yes.
    Chairman Chaffetz. The IRS first knew that there were 
problems with the emails back in February 2014, didn't they?
    Mr. Camus. I believe that's--that's correct.
    Chairman Chaffetz. By April 2014, they had concluded that 
they had a problem on their hands. But it wasn't until June 
2014 that TIGTA actually became aware that there were problems, 
correct?
    Mr. Camus. That is right.
    Chairman Chaffetz. And I guess that's part of what my 
colleagues need to understand here, is that the IRS knew that 
there were problems back in February 2014, but it wasn't until 
June 2014 that they actually started to let Congress and TIGTA 
know, despite what the IRS Commissioner told us. He told us we 
were given full cooperation.
    Mr. Koskinen said, ``We confirmed the backup tapes from 
2011 no longer existed because they have been recycled.'' Is 
that true or false?
    Mr. Camus. We're looking at two populations of tapes. So 
there was some confusion for them. When we asked for the 
initial set of tapes with the date ranges, they provided the 
744 tapes. We believe those were the tapes. We found a new 
population of tapes literally 2 weeks ago. We believe those 
were the 2011 tapes.
    Chairman Chaffetz. Chairman Camp asked at one point, ``Your 
letter describes the Lois Lerner emails as being 
unrecoverable.'' Commissioner Koskinen responds, ``Correct.''
    The Lois Lerner emails are ultimately recoverable, aren't 
they? At least a portion of them.
    Mr. Camus. We recovered quite a number of emails, but until 
we compare those to what's already been produced, we don't know 
if they're new emails.
    Chairman Chaffetz. I've got to tell you, I--we have been 
patient. We have asked. We have issued subpoenas. We have held 
hearings, the Ways and Means, Senate Finance, House Oversight 
and Government Reform.
    It's just shocking to me that you start, 2 weeks later 
you're able to find the emails, you go and talk to the people 
who are in charge of this, and nobody even asked them for the 
tapes?
    I've got to tell you, I really do appreciate the great work 
that you are doing on this.
    You know, the ranking member, I've got the greatest respect 
for him. And he cited some statistics that I believe were given 
to him by the IRS--250 employees and thousands of hours and all 
this. But the one thing that we're trying to get to, and nobody 
even asked them for it. Didn't even ask.
    I'll yield back.
    I recognize the ranking member.
    Mr. Cummings. Go to Mr. Connolly.
    Chairman Chaffetz. Oh, my apologies.
    We're going to recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair, and I thank the ranking 
member.
    And, boy, can I relate to your frustration, Mr. Chairman, 
asking for a document and not being given it. Why, Mr. 
Cartwright and I have asked for a simple document from Mr. 
George himself.
    Mr. George, on February 5, 2014, we filed a complaint 
against you with the Integrity Committee of the Council of IGs 
raising serious concerns over the troubling activities of your 
office under your leadership: publishing incomplete and 
misleading findings, engaging in partisan activities, meeting 
solely with Republicans on this committee, excluding Democrats, 
and allowing it to determine the scope of your audit.
    On September 17, I requested a copy of your response to the 
contents raised in our letter--September 17, 5 months ago. The 
next day, your counsel assured our staff in an email you would 
respond to the request. To this date, you have not responded to 
the request.
    I really sympathize with the chairman's frustration of not 
getting documents. We didn't subpoena you, but your office 
assured us we'd get a copy. Where is the copy of your response 
to our complaint before the Integrity Committee of CIGIE?
    Mr. George. As you know, sir, the Integrity Committee of 
the CIGIE is operated--is led by the Federal Bureau of 
Investigations. And it is my understanding that you or your 
staff have reached out to the FBI requesting the materials that 
you cited. My understanding is the FBI refused to provide you 
with that information because that is their policy. And that's 
my understanding, sir.
    But----
    Mr. Connolly. Actually----
    Mr. George [continuing]. As of today, sir, I have not 
received a written request from you or from this committee 
requesting that I waive my Privacy Act rights----
    Mr. Connolly. Let me make two points to that, Mr. George.
    First of all, with respect to your privacy rights, let me 
quote from the Integrity Committee of CIGIE with respect to 
privacy. ``We are not presently aware of a restriction imposed 
by the Privacy Act to provide one's own response.''
    Second, your staff indicated by email you would be 
responsive 5 months ago.
    Now, if you need a written request from Mr. Cartwright and 
myself, I've asked my staff to present it to you right now.
    Mr. George. Well----
    Mr. Connolly. Here is a written request that we are asking 
for a simple document, your response to our complaint before 
CIGIE----
    Chairman Chaffetz. The gentleman will share that document 
with the chair, please.
    Mr. Connolly. Happy to do so, Mr. Chairman.
    Chairman Chaffetz. Do that now, please.
    Mr. Connolly. But, I mean, we can't have it both ways in 
this committee. We can't be complaining about the fact that 
IRS, having provided tens of thousands of documents, hasn't 
provided every little thing we want--fine--and we're willing to 
subpoena, and we're willing to waive Fifth Amendment rights and 
everything else, when the TIGTA himself has not provided a 
copy, a simple document, your response to our complaint. We 
think we're entitled to it.
    You want a written request? You've got it, Mr. George.
    Mr. George. And I would just note, I'll take this under 
advisement with my counsel, but I should point out that the FBI 
conducted its review of the Integrity Committee, and it 
exonerated myself and my organization.
    Mr. Connolly. We know nothing about an exoneration.
    And, for the record, Mr. Cartwright and I are going to 
resubmit the complaint, because the response we got was so 
bureaucratic and inadequate in one paragraph. And because you 
were unresponsive, we feel we have to reopen this investigation 
and ask the new chairman of CIGIE to cooperate with us. And 
we're going to do that. We're going to pursue that, Mr. George.
    We feel you can't--if you're the guardian of IRS documents 
and you yourself are the subject of an investigation or a 
complaint and you won't provide one document, whatstanding have 
you got to advise this committee about how we retrieve or 
capture documents we're seeking?
    Mr. George. Well, Mr. Connolly, I'm not going to engage in 
a debate with you here, but there is certain information you're 
not going to be able to receive access to related to this 
investigation pursuant to Title 26, Section 6103 of the United 
States Code.
    Mr. Connolly. Yes.
    Mr. George. And so, once the investigation is completed, 
you will receive a conclusion, the Congress will receive a 
conclusion. And there are certain committees in Congress that 
do have access to that information. They will receive the 
materials. But----
    Mr. Connolly. We look forward to it, Mr. George.
    Mr. George. So just as it----
    Mr. Connolly. I've been waiting for over 5 months.
    Mr. George. Just as it relates to an investigation of me 
and my organization, you're not entitled to certain documents.
    Mr. Connolly. Oh, really.
    Mr. George. That's correct.
    Mr. Connolly. Well, we'll see about that, won't we, Mr. 
George?
    Mr. George. Your prerogative, sir.
    Mr. Connolly. Yes, it is.
    I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Recognize the gentleman from Florida, Mr. Mica, for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman, and thank you for 
following up.
    It looks like we've been lied to or at least misled. As 
recently as February 11, Commissioner Koskinen, the IRS 
Commissioner, came before us again, and he repeatedly Stated 
that the emails were not recoverable.
    Now, they have known for some time that some of these were 
recoverable. Is that correct, Mr. George?
    Mr. George. I'm going to defer to Mr. Camus for that, sir.
    Mr. Mica. Is that true?
    Mr. Camus. Mr. Mica, I don't know what they knew and when 
they knew it. The only thing I know is that, as our 
investigators followed the trail, we were able to determine a 
number of emails. We have yet to compare them to what's already 
been produced.
    Mr. Mica. Well, the IRS consistently Stated from June 2, 
2014, when Cate Duval identified the problem, till June 13, 
2014, in a letter to the Finance Committee that the agency did 
everything possible to recover the emails.
    But, in the meantime, you started your recovery when? 2014?
    Mr. Camus. June in 2014, yes, sir.
    Mr. Mica. June 2014. Have they been made aware at all that 
there was some recovery underway?
    Mr. Camus. They've been provided this similar information 
to what----
    Mr. Mica. They've been provided similar information, and 
yet, since then, they've been coming to us and most recently 
said, our experts said we had no way, they were unrecoverable.
    That wouldn't be a Statement of fact. They knew otherwise, 
did they not?
    Mr. Camus. It would appear so.
    Mr. Mica. OK.
    The other thing, too, is, OK, you've found 32,000. We've 
been provided 24,000. And I understand we got those from other 
sources, other employees, not from the tapes.
    And you found 32,000, did you say?
    Mr. Camus. Yes, sir.
    Mr. Mica. OK. So that means there's at least 8,000 we more 
than likely haven't seen. You haven't turned any of those over 
to us yet, have you?
    Mr. Camus. No, sir. We still have to match----
    Mr. Mica. OK. What is the process of getting those to us? 
You said you've got a software company to help separate them. 
What would you estimate the timeframe?
    Mr. Camus. Well, we're hoping to get the software at any 
time. Once we do that, we don't anticipate more than a week for 
the match to occur.
    Mr. Mica. So you can get us--so there are about--I mean, 
this is simple math. There are about 8,000, wouldn't you say, 
that we probably wouldn't have access, because you've got--or 
we've got 24, you've got 32.
    In addition, you said now you've found 2011 tapes 2 weeks 
ago. Is that correct?
    Mr. Camus. Yes, sir.
    Mr. Mica. What kind of volume do you think you've got 
there? What would a tape have? Any idea of the emails? Has that 
been looked at at all?
    Mr. Camus. The tapes vary in size due to how much is 
compacted on them, so it's very difficult to tell. One of the 
first things we have to determine about the new population of 
tapes is if they, in fact, have been erased. So it may be 
possible to----
    Mr. Mica. And you've found some tapes have been erased that 
you cited in your testimony of the ones that you were given in 
the previous batch?
    Mr. Camus. There were some blank tapes in the initial 
batch.
    Mr. Mica. Were they erased, or were they blank?
    Mr. Camus. That is impossible to determine.
    Mr. Mica. So we know that there are some tapes that either 
were blank or made blank, right?
    Mr. Camus. Correct.
    Mr. Mica. Erased.
    Mr. Camus. Correct.
    Mr. Mica. OK. And, again, how long will it take you to 
process the new tapes to get to us, do you think?
    Mr. Camus. We just started the process, and we're trying to 
understand if there's any--if they--if there's any data on them 
at all. There are 424 of them, and we're going to start with 
sample sizes.
    Mr. Mica. Did you say 424?
    Mr. Camus. Yes, sir.
    Mr. Mica. Holy Moses. Because the other was seven hundred--
--
    Mr. Camus. 744.
    Mr. Mica. And that produced the 32,774. So there could be a 
good volume of tapes that have never been seen with--I mean, 
there are a volume of tapes never seen, but they could 
contained a volume of emails never been seen. Is that possible?
    Mr. Camus. It is possible.
    Mr. Mica. OK.
    Mr. Camus. It's important to note that the total number of 
emails, 39,744, again, that some of them could have already 
been produced----
    Mr. Mica. Yes.
    Mr. Camus [continuing]. And that some of them are earlier 
than the timeframe in question.
    Mr. Mica. Well, Mr. Chairman, too, what concerns me is 
witnesses have come before us from IRS and have denied that 
some of these things existed, denied that they had knowledge. 
And I think that they have misled or lied to the Committee, and 
I think that should be taken under advice of counsel.
    Yield back.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the gentlewoman from New York, Ms. Maloney, 
for 5 minutes.
    Mrs. Maloney. I thank the witnesses and the chairman and 
the ranking member for calling this hearing.
    Mr. Camus, I would like to walk through how you found these 
additional emails and clarify exactly what they might contain.
    Originally, there were reports that there were 80,000 new 
Lois Lerner emails, but now you're saying that the number is 
closer to 32,000. So can you explain how the number went from 
80,000 to 32,000?
    Mr. Camus. Yes, ma'am. It went from 80,000 to 32,000 
because we removed duplicates.
    The five email sets that we have were backups, 1 week after 
the other. So there was a high number of--60 percent of them 
were duplicates of each other. So if you took the 80,000 total 
and you took out the 60 percent that were duplicates, that give 
us the subset.
    Mrs. Maloney. Duplicates of the 80,000?
    Mr. Camus. Yes, ma'am.
    Mrs. Maloney. So they're just duplicates of the 80,000.
    Mr. Camus. Yes.
    Mrs. Maloney. OK. So, to be clear, these 32,000 emails are 
what remained after your office removed all these duplicates 
from the batch of 80,000.
    Mr. Camus. That is correct.
    Mrs. Maloney. Well.
    Now, thousands of emails from Mrs. Lerner were already 
provided to the Committee by the IRS; is that correct?
    Mr. Camus. Yes.
    Mrs. Maloney. And do you know how many of these 32,000 
emails have already been produced to this committee?
    Mr. Camus. That is a step in the process that we have yet 
to take, but we plan on taking it as soon as we can get the 
available software.
    Mrs. Maloney. So is it possible that some of these 32,000 
emails have already been provided to the Committee?
    Mr. Camus. Yes, ma'am.
    Mrs. Maloney. So they could actually already be in your 
files and they're for everybody to review.
    Mr. Camus. That is correct.
    Mrs. Maloney. So how long is it going to take to do this 
matching process to find out if, in fact, there's any new 
material?
    Mr. Camus. We are going to do it as soon as we can get our 
hands on the software.
    Mrs. Maloney. So how long do you think it's going to last?
    Mr. Camus. We've been anxiously waiting. We ordered the 
software in December, and we're in negotiations with the vendor 
to obtain it.
    Mrs. Maloney. And once you get the software, how long is it 
going to take to----
    Mr. Camus. We're hoping it will only--it will take a week.
    Mrs. Maloney. A week. OK.
    And so, as I understand it from your testimony here today, 
you are unable to confirm whether there are any, to use your 
own words, new emails, right?
    Mr. Camus. That's correct.
    Mrs. Maloney. So what's before us may be material you 
already have, right?
    Mr. Camus. That is correct.
    Mrs. Maloney. So may I ask, why are we here?
    Mr. George, why are we at a hearing at 8 o'clock at night 
on something which may not be any new material at all?
    And we're not even talking about content. We've got to 
decide whether this is something that's already there. You 
already threw out 60 percent of the 80,000, down to 32,000, 
because it was exactly the same thing.
    So why are we here?
    Mr. George. Is that a rhetorical question, Ms.----
    Mrs. Maloney. No. No, seriously. I mean, what new material 
do you have?
    Mr. George. Well, it is important to keep Congress informed 
as to the status of the investigation. And so it was at the 
request of the chairman that we are before you this evening.
    Mrs. Maloney. So it was not your idea to have a hearing at 
8 o'clock at night on material that may already be in your 
office. And, once you match it, it may be no material--new 
material at all, right?
    Mr. George. That is correct.
    Mrs. Maloney. Well, I would say that that clearly fits the 
definition of premature or a waste of time. Would you agree?
    Mr. George. I'm not going to----
    Mrs. Maloney. I know. I know.
    But I want to be clear. You cannot even begin to draw any 
conclusion about the contents or any possible implications that 
might have on this investigation at this time because you don't 
even know if you have any new material. Is that correct?
    You don't even know if it's any new material. It's just a 
rerun of what may already just be in your office, like the 60 
percent that you threw out of the 80,000 emails.
    I want to thank you for testifying today. My time has 
expired.
    Mr. Cummings. Would the gentlelady yield?
    Mrs. Maloney. I would--I yield to the ranking member, but I 
look forward to you coming back when you have some real 
material for us.
    Mr. George. Most definitely.
    Mr. Cummings. Thank you.
    Mr. Camus, exactly, if you can tell us, what's involved in 
those negotiations for this software? And how soon do you 
anticipate, based on the rate you're going with your 
negotiations, that you will have it?
    Because I think the Committee--it would benefit the entire 
committee to have some kind of idea of what kind of timeframe 
we're talking about.
    Mr. Camus. There seems to be a dispute with the vendor over 
certain licensing rights, rights to come in and review how the 
software is being used, which would mean they could come in and 
look at the material that we're matching, and that's not 
acceptable to the Federal Government. So there are those types 
of negotiations going on right now between our procurement 
officers and the vendor.
    But this is a renowned company that has the software that 
we need to do the job. It's used forensically. And it's just 
very unfortunate, in this particular moment, on this particular 
case, that we're running into this problem at this time.
    Chairman Chaffetz. Thank you.
    I would note to the gentlewoman, the reason we're here is 
we haven't had an update in a year and a half. And just a 
little over a week ago, they found more than 400-and-some-odd 
tapes. They are pursuing a potential criminal investigation. 
They went to go find the tapes; it took them 15 days. We've had 
testimony time and time and time again from the IRS that said, 
we can't find them, they're destroyed, they've been duped over. 
And they found them in 15 days. That's, in part, why we're here 
today.
    I now recognize----
    Mrs. Maloney. Will be gentleman yield? Will the gentleman 
yield?
    Chairman Chaffetz. I'm going to recognize the gentleman 
from Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. I thank the chairman.
    Mr. Camus, we learned from John Koskinen and the IRS that 
they had lost the backup tapes, or that the backup tapes no 
longer existed, when we got a letter--well, the letter went to 
the Senate Finance Committee, but that's when we learned, 
that's when the American people learned.
    When did you learn? When did the IRS tell you that the 
backup tapes didn't exist?
    Mr. Camus. The same--the same time as everybody else.
    Mr. Jordan. So you learned like everyone else.
    Mr. Camus. Yes, I did.
    Mr. Jordan. OK.
    And then when did you find the tapes that the IRS said 
didn't exist?
    Mr. Camus. We asked for them on June 30, and we had them by 
July 1.
    Mr. Jordan. This is where the chairman was a few minutes 
ago.
    Mr. Camus. Yes.
    Mr. Jordan. So you learned like the whole world, and then, 
as the chairman said, 15 days later, you find them. How'd you 
find them?
    Mr. Camus. We asked for them, and we demanded them.
    Mr. Jordan. But, I mean, how'd you actually get the 
physical tapes? What did you do?
    Mr. Camus. Well, we identified the IRS experts that would 
know where the tapes are. We interviewed them, and we obtained 
them.
    Mr. Jordan. Did you get in a car and drive to Martinsburg, 
West Virginia?
    Mr. Camus. That is correct.
    Mr. Jordan. Yes. You just got in a car, we drove to the 
place that had the tapes, you said, ``Can we see the tapes?'' 
``Here they are.'' Yes.
    And those people, when you got the tapes from them, you 
said, ``Hey, by the way, did the IRS ask you--did they come out 
and ask you if the tapes were here?'' You asked them that 
question, right? And their answer was?
    Mr. Camus. No.
    Mr. Jordan. No, they didn't.
    So you just did something pretty simple. Where are the 
tapes? I'm going to get in the car, I'm going to drive, and I'm 
going to get the tapes.
    Now, as the chairman pointed out, for 4 months the IRS knew 
they lost the tapes--lost them--and didn't tell us and then 
told the whole world, told you on June 13. And within a few 
days, you had those tapes.
    And there were 770 and--or, excuse me, 744 tapes you got on 
July 1.
    Mr. Camus. Correct.
    Mr. Jordan. When you drove to Martinsburg and actually got 
the tapes.
    Mr. Camus. That's right.
    Mr. Jordan. OK.
    So you have that number--you had a lot of numbers in your 
testimony, but I want to focus on that number.
    And then I want to focus on, were these the only tapes 
you've actually gotten in your possession? Are these the only 
tapes you've got?
    Mr. Camus. No. Two weeks ago, we recovered an additional 
424 tapes.
    Mr. Jordan. All right. So that's what you pointed out near 
the end of your testimony.
    So 744 tapes originally. Now, just 2 weeks ago, you 
obtained 424 more. How'd you find out about these tapes?
    Mr. Camus. As we were following up on our initial 
interviews, we realized that we were missing a document. When 
we obtained that document and reviewed it, we realized that 
they were an additional population of tapes that had been 
unaccounted for.
    Mr. Jordan. So, missing a document. Whose document was 
that, and who should have given you that document?
    Mr. Camus. It was an IRS document.
    Mr. Jordan. So they withheld a document from you that 
prevented you from figuring out there were more tapes than 
these 744. Is that accurate?
    Mr. Camus. ``Withholding the document,'' I can't 
characterize that at the time because that's still under 
investigation.
    Mr. Jordan. They didn't give you a document, and, by not 
having the document, you couldn't figure out that there were 
more tapes out there with potentially more Lois Lerner emails 
on them. Is that correct?
    Mr. Camus. That would be accurate.
    Mr. Jordan. Yes.
    So any concerns about the fact that that document wasn't 
there? And how did you figure out that the document was 
missing?
    Mr. Camus. Just following up, as we are--as we're coming 
down to the conclusion of our investigation, we make sure we 
have all the documents. So when we determined that we were 
short one document, we went and demanded it, and we obtained 
it. Then we were able to notice that there were a population of 
tapes that had never been disclosed.
    Mr. Jordan. And where were those tapes? The same place?
    Mr. Camus. They were also in Martinsburg.
    Mr. Jordan. So you got in the car and drove there again, 
right?
    Mr. Camus. Yes, we did.
    Mr. Jordan. You got more tapes.
    Mr. Camus. We did.
    Mr. Jordan. Amazing. Amazing.
    So, now, here's the key. And this is--the chairman, in his 
opening round of questions.
    So when you have the IRS take 4 months to tell you 
something, and they don't even go to the place--you figured out 
in 2 weeks, you got in a car, drove there, and got them. The 
IRS says they don't exist. Right? You can find them in 2 weeks, 
get access to those tapes, and then you learned that there--so 
4 months there, you get them in 2 weeks. And then you learn 
that they're not giving you the documents that you need to find 
even more tapes.
    So when the chairman asked the important question, is there 
potentially criminal activity here, your answer was?
    Mr. Camus. There is potential criminal activity.
    Mr. Jordan. And that's the thing, right? I mean, it sure 
smells like it.
    If the IRS takes 4 months to tell us something as important 
as, ``We lost Lois Lerner's emails,'' and their excuse is, 
``We're doing everything we darn well can do to get those,'' 
and then when they do make it public to the whole world--they 
didn't tell you ahead of time. They told you when they told the 
whole world. And in 2 weeks, you got them. Suddenly, they're, 
``Oh, wait a minute''--well, 2 weeks to get them.
    And then you find out, in addition to that, they're 
withholding documents that uncover even more tapes. So we're 
not talking 744 tapes. We're talking over 1,100 tapes that we 
now have.
    And so, of course, this--that's why we're--she's done left. 
She should have stayed. This is why we're having the hearing. 
When the American people understand 1,100 tapes that the IRS 
said, ``They're gone, we can't get them,'' and all you do is 
get in a car, drive to Martinsburg, West Virginia, not that 
far, one State over, and get the tapes, holy cow. Of course--we 
should have had this hearing 2 weeks ago when you first learned 
that those 424 tapes were out there.
    Chairman Chaffetz. Thank the gentleman.
    Mr. Jordan. My time's expired. I yield back.
    Chairman Chaffetz. Now recognize the gentleman from the 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I want to thank Mr. George and Mr. Camus for your help 
tonight, although I have serious misgivings about doing this 
hearing halfway through an audit. And I know in your precatory 
address you talked about that.
    And I have to ask both of you, do you typically do a 
hearing like this halfway through an audit, when you're not 
complete, when you know that things could change, as you said?
    Mr. George. Congressman, actually, the audit is complete. 
The initial audit is complete. We've initiated a subsequent 
audit looking at how other groups were treated----
    Mr. Lynch. I know that, but you also said you've got a lot 
more work. You've got this matching think you got to do. OK? 
You have to find out whether these are duplicates or from a 
period before any of this occurred.
    So you've got a lot that you haven't----
    Mr. George. They're two separate----
    Mr. Lynch [continuing]. Determined, and you haven't made 
any conclusions yet.
    Mr. George. Excuse me, sir. There's two separate tracks. 
There's the audit track, and then there's an investigations 
track. And I'll ask Tim to address the investigations track.
    Mr. Camus. Thank you, sir.
    Generally, we don't discuss ongoing investigations. This 
particular matter and this particular case is of such interest 
to so many parties, we're trying to limit our discussion to----
    Mr. Lynch. I know what you're trying to do. And I 
appreciate that. I appreciate that. And I know you're trying 
mightily to adhere to that standard.
    But, in the middle of this, there's allegations out there, 
repeated allegations, that this is potentially criminal 
activity. It's also potentially not criminal; is that correct?
    Mr. Camus. That's correct. We'll----
    Mr. Lynch. Yes. Don't----
    Mr. Camus [continuing]. Have to conclude our investigation.
    Mr. Lynch. And yet there's allegations that, you know, the 
IRS is withholding documents. And that's not necessarily true. 
It could be otherwise, right?
    Mr. Camus. It's possible.
    Mr. Lynch. Right.
    Well, here's--on May 22, Mr. George, you testified before 
this committee, and you said this, ``There are established 
procedures for conducting an audit. And, once again, this is an 
audit. And to ensure fairness in this investigation and to 
ensure that we are completely accurate with the information 
that we convey to Congress, we will not report information 
until the IRS has an opportunity to take a look at it and to 
ensure that we're not misstating the facts.''
    Do you remember saying that, sir?
    Mr. George. Vaguely, yes.
    Mr. Lynch. Right.
    And then when pressed further, you said this: ``Sir, but it 
would be impractical for us to give you impartial information 
which may not be accurate. It would be counterproductive, sir, 
if we were to do that.''
    That's what you said.
    Mr. George. Again, my understanding is, referring to the 
audit.
    Mr. Lynch. Well, this says--it says, ``Why, in your view, 
is it counterproductive to publically disclose information 
regarding ongoing audits and investigations?''
    Mr. George. Well, I don't recall saying that, but if you're 
quoting me, I----
    Mr. Lynch. Here's another one. In response to another 
question, you said, ``I think it would behoove all of us to 
ensure that accurate information is given to Congress so that 
we don't act precipitously. As you I am sure are aware, many 
times when information is conveyed to the Hill, it is sometimes 
not retained on the Hill, and that is not fair to the people 
who we are investigating.''
    Do you recall saying that?
    Mr. George. I recall that, definitely.
    Mr. Lynch. So I'm very concerned about this whole process, 
for your reputational interests, not just for people who are 
suspected of wrongdoing. I just think it's wrong.
    And you're telling me that, once you get this software in 2 
weeks' time, you'll be able to do the match, you'll be able to 
give us some concrete determinations. Right now, this is all 
speculation, and I think it hurts this hearing.
    And this is not an issue that should be sidestepped. I'm 
not saying that. I'm just saying we should do a very, very good 
job, and we shouldn't go off half-cocked before you can make 
the determinations that you need to make and that we have hard 
evidence here, when you can actually say whether or not there 
was affirmative withholding here, when you can say whether or 
not people hid things or, as was said earlier, we were lied to.
    Right now, I'm concerned about the due process rights of 
these people who are being accused in absentia, when we don't 
have the evidence, we don't have a final--an end to this 
investigation, and we're doing this halfway through the 
process. I just think we should be better than that.
    And it if takes 2 more weeks--and we have waited a long 
time. We have waited. And I don't begrudge the chairman from 
being frustrated. I'm frustrated, too. But I would like--I 
would like a stone-cold--a full report here so that we can 
actually do our job. And, right now, there's too much 
speculation going on from the full spectrum of possibilities.
    And I respect your desire and your effort to keep this down 
to, you know, just the mechanics of what you've been doing, but 
it's gone far beyond that already. And I think you've impugned, 
by your own admissions here, the people who you're 
investigating. And I think that may come back to bite us and, 
indeed, hurt the integrity of your own investigation, by doing 
this prematurely.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    Now recognize the gentleman from Michigan, Mr. Walberg, for 
5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And I thank you for continuing this investigation. I think 
they doth protest too much. And the gyrations that are going 
on, trying to indicate that we are premature, my gracious, if 
this is premature, I'd hate to see what delayed is.
    This is our responsibility, Mr. Chairman--and thank you--to 
do oversight, to continue to push to get to the answers. 
32,000, they may all be duplicates, but we should have had 
those. We should have 80,000. We have the responsibility and 
the right to have those. And I appreciate the work that's being 
done here.
    I mean, we're still talking about citizens who have been 
attacked by their government. Their IRS intimidated. Even to 
this day, it's still going on. These are people we can't 
forget.
    ``If you say the targeting issues have been resolved, how 
come we still haven't received a determination one way or the 
other?'', asked Rick Harbaugh, leader of the Albuquerque Tea 
Party, which has been waiting 5 years for its tax exemption. 
``We are still being targeted.'' That's in their mind. And so 
it's good work we're doing here.
    In May 2013, the DOJ announced that it would be conducting 
an independent investigation of the IRS targeting in 
conjunction with the Treasury Inspector General for Tax 
Administration, you folks. At the 2013 press conference where 
Holder made the announcement, he said, ``Those were, I think as 
everyone can agree, if not criminal, they were certainly 
outrageous and unacceptable. But we're examining the facts to 
see if there were criminal violations.'' Good.
    But a DOJ official involved in the investigation, who is 
doing this at Eric Holder's behest, was Barbara Bosserman, who 
contributed the maximum amount to President Obama's campaign.
    The DOJ leaked last year that it did not anticipate any 
criminal charges being filed. And, earlier this year, February 
13, to be exact, our Attorney General, Eric Holder, said, ``I'm 
satisfied with the progress that the Criminal Division has 
done. The Civil Rights Division, as well. I expect that we will 
have some final recommendations coming up relatively soon.''
    Well, if that's the case, then it is important that we do 
these studies, these questioning right now.
    Let me ask Mr. George and Mr. Camus, is TIGTA still 
participating in the DOJ's investigation of the targeting of 
conservative nonprofit groups?
    Mr. Camus. Yes, sir, we are.
    Mr. Walberg. Is this investigation nearing completion?
    Mr. Camus. That's a DOJ investigation. I can't comment on 
their behalf.
    Mr. Walberg. Are you aware if any criminal charges are 
going to be filed?
    Mr. Camus. I'm not aware of that, sir.
    Mr. Walberg. Considered to be filed?
    Mr. Camus. I'm not aware of the specifics.
    Mr. Walberg. Are you aware that, in January, Eric Holder 
Stated that the DOJ's investigation was nearing completion and 
that DOJ would be making recommendations to IRS?
    Mr. Camus. I'm not aware of that Statement, sir.
    Mr. Walberg. Do you know what these recommendations will 
be?
    Mr. Camus. I do not.
    Mr. Walberg. I think we are getting a trend here.
    Another reason for this hearing--to find who's on first, 
who's on second, what's progressing, what we have to expect, 
what we need to be looking for.
    Isn't it your job and not the job of DOJ to make 
recommendations to the IRS?
    Mr. Camus. It is.
    Mr. Walberg. Your job to do that.
    Mr. Camus. It is.
    Mr. Walberg. So the purposes for which you are undertaking 
this investigation, you are doing it with diligence.
    You may have a question, Mr. George, about one document. 
We've got 32,000 documents that we're concerned about here.
    But more than that, again, I go back to the fact that we 
are concerned about citizens, private citizens, taxpaying 
citizens, citizens who have First Amendment liberties, citizens 
who have the right to know that their government will not go 
after them in untoward ways simply because of their beliefs, 
their values, who they join and involve themselves with.
    And I thank you for the good work you're doing. I wish that 
we could receive the information that we requested so we could 
work alongside in a parallel process to get to the bottom of 
what ought to be the American ideal, and that's freedom and 
opportunity.
    Mr. George, you have a Statement?
    Mr. George. Just briefly.
    I think it's important to note that we had made 
recommendations to the IRS on this very issue and are in the 
process of reviewing to see whether or not those 
recommendations have been implemented. And hopefully that 
report will be out in the not too distant future.
    Mr. Walberg. Thank you.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. George, in case you or anyone listening does not fully 
understand why Mr. Connolly and I have filed a complaint 
against you, here's the beef.
    The Council of the Inspectors General on Integrity and 
Efficiency, or CIGIE, is the organizing entity for IGs across 
Federal agencies. They issue a handbook for IGs like you on how 
to conduct investigations in a nonpartisan manner. This is what 
the handbook says about discussing ongoing investigations with 
Congress, ``IGs should avoid any appearance of partisanship in 
such engagements. Bipartisan meetings and outreach is the most 
appropriate format for such OIG meetings.''
    What is troubling to me is that, during this investigation, 
you and your staff have engaged in a series of activities that 
contradict this clear guidance.
    At the beginning of this investigation more than 3 years 
ago, your staff held a private meeting with Republican staff 
working for former Chairman Darrell Issa of this committee--
that meeting occurred on March 8, 2012--during which your staff 
discussed the scope of the investigation. Democrats were not 
invited, were not informed, and did not participate.
    On July 11, a few months later, you sent a private letter 
to former Chairman Issa confirming these events. This is what 
you wrote, and I ``After our meeting, our Office of Audit 
recently began work on the issue. We would be happy to provide 
a status update to the subcommittee staff.'' You sent a copy of 
that letter to Representative Jordan, but you did not send a 
copy to any Democrats.
    On May 15, 2013, you issued your report. So, right there, 
that means you worked over a year on your audit for this 
committee with the Democrats on this committee entirely in the 
dark--you, who are required to be bipartisan and not partisan.
    So what did you write in the May 15, 2013, report? You 
talked about the BOLOs, you talked about the right-wing groups 
being targeted, but you did not reference any progressive 
groups that we know were subjected to similar treatment.
    When you came before this committee on May 22, a week 
later, 2013, we asked why your report did not address 
progressive groups. You said, ``Because those groups did not 
have, again, the Be on the Lookout, 'Tea Party,' 'Patriot,' or 
9/12' in their names.''
    When we asked you about specific reports that the IRS was 
treating progressive groups similarly, you said this, ``I have 
subsequently received information that what you're indicating 
may have occurred, and, as a result, we will be conducting a 
followup review to determine whether or not that's the case.''
    On July 18, 2013, you testified before this committee 
again. At that hearing, we showed you internal IRS documents 
indicating that progressive groups were subjected to this type 
of scrutiny and were also included on training materials. You 
said, ``We just learned about that recently, and that name was 
being used by the IRS. So, you know, as I indicated in my 
opening Statement, we just recently, last week, received new 
information that is disturbing and we need to pursue.'' So you 
testified it was disturbing that you did not discover these 
documents about progressive groups earlier.
    But, about a month earlier, on June 23, 2013, your 
communications director Stated publicly that the reason for 
this was because you were only looking for Tea Party groups. 
She said Chairman Issa had directed you, ``to narrowly focus on 
Tea Party organizations.'' When you testified on July 18, 2013, 
you said she misspoke, your communications director misspoke. 
So, apparently, it was your office, on its own, deciding to 
focus only on conservative groups and not to review progressive 
groups.
    On January 27, 2014, your staff held another meeting with 
Republican staff, and Democrats were excluded yet again. In 
fact, on February 4, Ranking Member Cummings wrote to complain 
about partisan activities and not including Democrats.
    Nevertheless, these partisan activities have continued to 
this day. About a month ago, on January 22, your staff met 
privately with Chairman Chaffetz, Chairman Jordan, and others. 
There were no Democrats present. You did not inform the 
minority the meeting was going to happen. And it wasn't until 
11 days later that your staff finally provided the minority 
with that briefing.
    Mr. George, as you sit here today, this evening, are you 
aware that your IG handbook says, ``IGs should avoid any 
appearance of partisanship. In such engagements, bipartisan 
meetings and outreach is the most appropriate format for such 
OIG meetings''? Are you aware of that this evening?
    Chairman Chaffetz. The gentleman's time has expired, but 
the gentleman, Mr. George, may answer the question.
    Mr. George. I mean, that is quite a bit of information 
there, sir, and there is a lot that I would like to respond to. 
But suffice it to say I don't control the attendees of 
meetings. If I'm invited by the chairman of a full committee or 
a subcommittee to meet with him or her----
    Mr. Cartwright. It's a ``yes'' or ``no'' question. Are you 
aware that that's in your handbook, that you have to be 
bipartisan?
    Mr. George. I've engaged in bipartisanship my entire 
political and professional career, sir. So, yes, I----
    Mr. Cartwright. And did you know----
    Chairman Chaffetz. The gentleman's----
    Mr. Cartwright [continuing]. That that was in your handbook 
2 1/2 years ago?
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. George. I----
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    And, Mr. George, I want you to take heart and I want you to 
be heartened by the fact that, when one side has good facts, 
they pound the facts, and when they have good law, they pound 
the law, and when they don't have either facts or law, then 
they like to pound the judge. And that's what we've been 
listening to tonight. I've heard more questions and tougher 
questions directed to you than I've heard directed to Lois 
Lerner. So I want you to take heart.
    And we'll get back to this bipartisanship here toward the 
end, because I'd like to invite my friends from the other side 
of the aisle to write a letter to the Department of Justice. 
Speaking of the appearance of partisanship, we have a DOJ 
lawyer who contributed the maximum to the President, and that's 
who's supposed to be investigating.
    So, perhaps, Mr. Chairman, we could have a letter, and we 
could get some Democrats to sign that letter with us, and we 
can ask the Department of Justice to update us on the status of 
the investigation and whether or not Ms. Bosserman is the right 
person to conduct that investigation.
    However, Mr. Camus, I want to ask you this. Mr. Koskinen, 
Commissioner Koskinen, in June 2014, said that there was no 
evidence of criminal wrongdoing, which I found to be stunning 
because I was not aware previously that he was a criminal 
investigator. I thought he was the Commissioner of the IRS. So 
I think we both learned something that night.
    He had conducted a full investigation and found no criminal 
wrongdoing, which I found also stunning because the Ways and 
Means Committee had made a criminal referral to the Department 
of Justice.
    So, to the extent Mr. Koskinen is watching tonight, are 
there potential criminal statutes at play?
    Mr. Camus. Yes, there could be. Yes, sir.
    Mr. Gowdy. Well, what could they be? I'm not asking you to 
prejudge it, but you can't discriminate against someone based 
on their political ideology, can you?
    Mr. Camus. No.
    Mr. Gowdy. No. That's against the law, and thank the Lord 
for it.
    And you can't disclose confidential taxpayer information, 
can you?
    Mr. Camus. No, you cannot.
    Mr. Gowdy. No, you cannot.
    Nor can you mislead Congress, can you?
    Mr. Camus. You cannot.
    Mr. Gowdy. Could I ask the chairman to engage in a colloquy 
with me?
    Mr. Chairman, I listened--and he is my friend, from 
Virginia, Mr. Connolly. And I want to say that publicly. It may 
hurt him in this district, but he is my friend. I listened to 
him ask Mr. George to respond to a letter that he had written 
asking for an update on something that clearly Mr. George has 
no jurisdiction over and can't respond to.
    And I would be curious as to whether or not the chairman 
would ask our friends on the other side of the aisle if they 
would be willing to write a letter to the Department of 
Justice. I'd be curious how Ms. Bosserman was chosen out of all 
the competent--and there are lots and lots of competent 
attorneys in the Department of Justice. I am curious why she, 
as a max-out donor to the President, was picked to head this 
criminal investigation.
    And, Mr. Chairman, I'd be interested in whether or not 
there has even been a grand jury that's been convened. And, Mr. 
Chairman, I'd be interested in whether or not any grand jury 
subpoenas have been issued, either for documents or for 
witnesses. And I'd be interested in whether or not there are 
any proffer agreements or whether they've made any effort to 
talk to Ms. Lerner. You and I didn't have any success talking 
to her. I was hoping that they would have more success.
    So I would ask the chairman to investigate, given this 
bipartisan spirit that I heard tonight, asking our colleagues 
on the other side of the aisle to join in a letter with us 
asking for an update on the real investigation, not 
investigating the investigator, which is what I've heard a lot 
of tonight----
    Mr. Connolly. Would my friend yield?
    Mr. Gowdy [continuing]. But actually--I will in just a 
second. And I will, I promise--not investigating the 
investigator, which I've heard a lot of tonight, Mr. George, 
but the real underlying investigation into whether criminal 
conduct was engaged in.
    Would the chairman be willing to entertain that thought?
    Chairman Chaffetz. Yes. I will followup with you on that.
    Mr. Gowdy. And I thank the gentleman from Utah.
    And I would yield, with great trepidation, to my friend 
from Virginia.
    Mr. Connolly. I thank my friend. And he also is my friend.
    Now, I'm not a fancy country lawyer from South Carolina 
like my friend, but I would say it's a neat trick to attack 
folks on partisanship but to try to nullify our concerns about 
that very subject here with respect to Mr. George himself.
    The objectivity, Mr. George, is very much in doubt.
    And if my friend wants to draw us into a letter questioning 
the objectivity of the partisan activities of a lawyer at the 
Department, we're happy to entertain that if my friend will 
join us in the concerns that were enumerated by Mr. Cartwright 
and by myself in a 26-page complaint----
    Mr. Gowdy. Well, reclaiming----
    Mr. Connolly [continuing]. About the partisan briefings and 
the violation of the IG handbook.
    And, by the way, if we're going to condemn people or raise 
questions, by insinuation, of their partisan affiliations, we 
can do that with Mr. George, too, because he has a partisan 
history.
    Mr. Gowdy. Reclaiming my time, because I'm out of time, and 
I know the chairman----
    Mr. Connolly. I thank my good friend.
    Mr. Gowdy [continuing]. Is going to let me make one 
conclusory comment.
    This is, I think, the third time Mr. George has appeared 
before this committee. So my point to the gentleman from 
Virginia is simply this: What's good for the goose is good for 
the gander. If this man is going to have to sit here and listen 
to accusations about his character and his partiality, then I 
think the least that can be done is that we can have a few 
questions to the Department of Justice about--I'm not 
prejudging Ms. Bosserman. I have no idea. I just find it 
curious, out of all the thousands of lawyers in the Department 
of Justice, why they stumbled upon one who was a max-out donor 
to the DNC. That was my question.
    And I know I'm out of time, so I'll yield back to the 
chair.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from Michigan, Ms. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    And thank you, Ranking Member.
    Some of my colleagues--and many of you know that I'm a 
freshman Congresswoman, so this conversation has preceded me in 
the previous Congress. So I have some questions of timelines 
that I would like to validate.
    Some of my colleagues continue to claim that there was ill 
intent surrounding Lois Lerner's computer crash, that she 
intentionally crashed it to conceal her emails. I just want to 
review the timeline.
    And, Mr. George, Lois Lerner's computer crashed on June 13, 
2011; is that correct?
    Mr. George. That is correct.
    But for the technical questions, ma'am, I'm going to defer 
to Mr. Camus, but I'll do my best to answer the questions that 
I can.
    Mrs. Lawrence. And emails produced to the Committee confirm 
that it crashed on June 13, 2011.
    Then, on June 14, 2011, Ms. Lerner sent an email to several 
IRS employees stating that she could not read her emails 
because her computer crashed a day earlier. She wrote, ``My 
computer crashed yesterday. My BlackBerry doesn't work in my 
office, so I just saw this.''
    Mr. George, according to your audit report on June 29, 
2011, Ms. Lerner received a briefing explaining that the IRS 
employees in Cincinnati were searching for applications that 
included the terms ``Tea Party,'' ``Patriots,'' and ``9/12.''
    Do I have that date correct?
    Mr. George. Yes, you do.
    Mrs. Lawrence. So before Ms. Lerner received information 
from you that there were complaints, her computer had already 
crashed. Is that correct?
    Mr. George. You know, in all candor, Congresswoman, the 
timeline, as it relates to--and you're referring to the audit 
and not the investigation----
    Mrs. Lawrence. Yes.
    Mr. George [continuing]. So I will have to supply you an 
answer for the record, if that's permissible.
    Mrs. Lawrence. Well, according to your report, Ms. Lerner 
learned about these inappropriate search terms. She wrote--or 
she Stated that she immediately directed that the criteria be 
changed.
    Mr. George. I've just been informed that the date that you 
cited is accurate, Congresswoman.
    Mrs. Lawrence. OK. So if we are following the timeline, 
June 13, the computer crashed; on June 14, there was an email 
sent saying, my computer crashed yesterday; and then, on June 
29, Ms. Lerner received a briefing explaining that employees in 
IRS were using these terms.
    And if I'm correct, those are the timelines so far, 
correct?
    Mr. George. My understanding--and, again, I'm getting this 
from staff--is that most of the dates that you cited were 
accurate, with one possible exception. And----
    Mr. Camus. I believe the date that you cite for the 
computer crash is accurate.
    Mrs. Lawrence. OK.
    So, at the time of Ms. Lerner's computer crash, had TIGTA 
commenced its audit of IRS employees' handling of applications 
for tax-exempt status?
    Mr. George. No. No. It hadn't begun.
    Mrs. Lawrence. No. So she couldn't have known that you were 
coming in to investigate the past actions or the need for her--
she hadn't been notified of any need or any investigation when 
the audit began.
    Mr. George. Now, I don't know whether she was interviewed, 
and I can't, in all candor, determine what was in her mind. But 
that is an assumption I think one could make.
    I don't know if anyone--Tim, you would want to add to that?
    Mrs. Lawrence. I am looking for not assumptions. If the 
facts that we have is that her computer--we have a date, and 
her computer crashed on June 13. And it wasn't until June 29 
that there was indication that there was going to be an audit 
based on these terminologies that were being used.
    Mr. George. There is no question----
    Mrs. Lawrence. That's a fact.
    Mr. George. There's no question it was after----
    Mrs. Lawrence. OK.
    Mr. George [continuing]. The crash that there was any 
indication of an audit.
    Chairman Chaffetz. I----
    Mrs. Lawrence. And our former chairman did not ask to 
review this matter until 2012; is that correct?
    Mr. George. Yes.
    Chairman Chaffetz. I thank the gentlewoman. Time has 
expired.
    So we'll now recognize the gentleman from Kentucky, Mr. 
Massie, for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    So, just to go over some of the stuff in your opening 
Statements, you said that you found 744 backup tapes, Mr. 
Camus?
    Mr. Camus. That's correct.
    Mr. Massie. And this is after we were told in these 
hearings by Mr. Koskinen that these tapes were unavailable.
    When did you first obtain the tapes, those 744 backup 
tapes?
    Mr. Camus. July 1st, 2014.
    Mr. Massie. July 1st of 2014. What I find interesting is 
that Mr. Koskinen was here on July 9th, 2014, which would be 8 
days after you found those tapes. And those tapes were in the 
possession of IRS employees?
    Mr. Camus. Yes. They were the backup tapes that were in 
use.
    Mr. Massie. Right. And those backup tapes were kept by the 
IRS in Martinsville, West Virginia?
    Mr. Camus. Martinsburg, West Virginia.
    Mr. Massie. Martinsburg. Sorry.
    But 8 days later after you found those tapes from IRS 
employees--and you said you drove there to get them--I asked 
Mr. Koskinen, I said, ``I think you testified earlier that the 
backup tapes are recycled every 6 months.'' And Mr. Koskinen 
said, ``They are kept for 6 months, and then the tapes are put 
back into being recycled.'' I said, ``So the tapes are 
reused?'' Mr. Koskinen said, ``They are reused, yes. They are 
reused until they don't work.''
    And so my questioning went on further with him, because I 
don't think it's typical practice that these tapes are reused. 
They're too cheap to reuse.
    Do you have any indication that they were reusing those 
tapes?
    Mr. Camus. Yes. I believe they were reusing the tapes.
    Mr. Massie. So the tapes that you found, had they been 
overwritten?
    Mr. Camus. Yes.
    Mr. Massie. And so you have tapes that cover which dates?
    Mr. Camus. The tapes that we recovered had been 
overwritten. However, by obtaining them and looking at them 
ourselves, we were able to find a backup as far back as 
November 2012. And that backup contained emails that went all 
the way back to 2001.
    Mr. Massie. So those backups had not been overwritten.
    Mr. Camus. That is correct. There was information on that 
tape that had not been overwritten that allowed us to see email 
as far back as 2001.
    Mr. Massie. And you----
    Mr. Camus. Now, a distinct--go ahead.
    Mr. Massie. And you found 32,774 unique emails on those 
tapes, Lois Lerner emails?
    Mr. Camus. That are unique to Lois Lerner. But what we have 
yet to determine is if the IRS ever had possession of those and 
if they, in fact, turned them over to Congress.
    Mr. Massie. And you said you found nine tapes that were 
either blank or erased?
    Mr. Camus. That's correct.
    Mr. Massie. And, earlier, you testified you weren't sure 
whether they were blank or erased, and it was difficult or 
impossible to tell. Can the FBI discover--I mean, it seems to 
me, technically, that you could tell with some diligence, maybe 
not at first glance.
    Mr. Camus. Well, we were informed by two parties--one, the 
FBI, and then the other is a private expert on data recovery--
that the tapes, when they examined them, were blank. So whether 
or not they were erased and when they were erased, they weren't 
able to determine that based on their forensic expertise. 
That's why we sent them to two separate places.
    Mr. Massie. All right.
    So, another thing I wanted to ask you about. Some of Lois 
Lerner's cohorts had hard drives that failed, as well, during 
that same period of time after the investigation started or 
that the IRS was put on notice that they were going to be 
investigated.
    Do these tapes--or, could these tapes contain emails that 
may have been lost in the failure of those hard drives of her 
cohorts?
    Mr. Camus. Yes. We're also looking into those, as well.
    Mr. Massie. And so how many of her cohorts had hard drives 
that failed that you are looking for on these tapes?
    Mr. Camus. I believe it ended up being a total of five 
individuals.
    Mr. Massie. And have you found any of those emails yet?
    Mr. Camus. We're still in the process of looking. And those 
individuals were scattered in different places, so their emails 
were managed out of different email servers.
    Mr. Massie. Do you think you will be able to retrieve 
information from the--you said you found 760, is that correct, 
hard drives?
    Mr. Camus. That is correct.
    Mr. Massie. That were in a server-type arrangement, a rack?
    Mr. Camus. Yes.
    Mr. Massie. Do you think it will be possible to obtain 
information for those, based on your interaction with experts?
    Mr. Camus. It's too early to tell. If the drives are 
damaged beyond repair, it will be almost impossible to obtain 
meaningful email off of those.
    Mr. Massie. All right. Thank you.
    I yield back my time.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from the Virgin Islands, 
Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Yes, thank you, Chairman, Ranking Member.
    And, gentlemen, good evening to you.
    Mr. Chairman, Mr. Ranking Member, you know, I am a 
freshman, as well. And it is difficult for me, sitting here as 
a former prosecutor and a courtroom attorney, not to jump up 
and shout ``objection'' at a lot of the things that I've been 
hearing, which are in some instances hearsay and speculation, 
subjective conclusions that my colleagues are putting forward. 
It, quite frankly, is a little frightening for me to hear this 
without being able to say anything, but I'm learning, and so I 
will stick to how we are doing things here.
    Mr. George, you made a Statement that it's important to 
keep Congress informed. And I find it a little questionable 
that you would keep Congress informed of facts that in 
testimony Mr. Camus has Stated previously changed from day to 
day and that may negatively impact the integrity of 
investigations as facts change from day to day, 1 day to the 
next--which, as a previous investigator, I understand that you 
must come to the full conclusion before you put something out 
there which may, in fact, change.
    So, Mr. Camus, I wanted to ask you about the process that 
still needs to take place and that changing the narrative of 
investigations. I understand about the 32,000 emails which have 
already been produced to the Committee. And how long do you 
anticipate, after you've finished your analysis of the emails 
that you have, how long will that take, please? I think you may 
have Stated.
    Mr. Camus. Yes, ma'am. We have not produced any emails to 
any committee yet until we're finished with the match.
    Ms. Plaskett. And then after the match is done?
    Mr. Camus. Yes, to the degree the Committee can receive 
them, some may need to be redacted----
    Ms. Plaskett. Correct.
    Mr. Camus [continuing]. To take out the 6103 protected 
information.
    Ms. Plaskett. Exactly.
    Mr. Camus. So we're hopeful that, as soon as we get our 
hands on the software and are able to put the match together, 
we are probably a week or two away. And then the other factors 
that could play into when we're finished with our investigation 
and are able to issue a report with findings----
    Ms. Plaskett. Right. How long does it usually take you to 
draft a report, the final report?
    Mr. Camus. We're prepared to draft a final report when all 
the evidence is in, probably within a week or two.
    Ms. Plaskett. A week or two.
    Mr. Camus. Yes, ma'am.
    Ms. Plaskett. And so some of the information that you may 
have given tonight, if facts were asked, may in fact change?
    Mr. Camus. That is correct.
    Ms. Plaskett. And so we put that information out to the 
general public, which may in fact change.
    Mr. Camus. That is correct.
    Ms. Plaskett. That's a little troublesome.
    And I would ask the chairman and the ranking member that we 
give them that time period, which, although in the scheme, the 
long-term scheme of how long we have been investigating, 
doesn't seem to me to be that much more of a wait.
    Thank you.
    Mr. Cummings. Would the gentlelady yield?
    Ms. Plaskett. Yes. I will yield to the ranking member.
    Mr. Cummings. Thank you.
    You know, the question that needs to be asked here--and 
I've listened to all this, but this is the question.
    Mr. Camus, during your investigation, did you ask the 
question, why did you not have the information about the backup 
tapes? In other words, did you go to somebody and ask them that 
in IRS?
    Because nobody's asked that question yet. And that seems 
like a logical question, since we're talking about criminal 
activity, and I would think that that would possibly be the 
basis of some of it.
    Did you?
    Mr. Camus. To answer your question, Mr. Cummings, without 
compromising the investigation----
    Mr. Cummings. Right.
    Mr. Camus [continuing]. When we started our search for 
missing emails, we were going to leave no stone unturned and we 
were not going to take an obvious answer. So we were going to 
find and prove for ourselves whether or not email had been 
overwritten.
    We approached the Internal Revenue Service, and we said, we 
need all backup tapes that would have been in place between 
2008 and 2011 for Ms. Lerner. They provided the 744 tapes. We 
believed that we were working with the tapes that were in play 
and had allegedly been overwritten.
    After we starting analyzing those tapes and we started 
seeing email that went all the way back to 2001, we believed 
that we had found old tapes that had been in place since 2011 
in the server. Only until 2 weeks ago were we told and did we 
find through our investigative efforts----
    Mr. Cummings. Well, that's where I'm going. But did you ask 
the question about that, what you discovered? Like, what 
happened? I mean, did you say, what's this about?
    Mr. Camus. Naturally, that's probably the most important 
part that is left for us to investigate at this point, is to 
determine how and why all that happened and if there was any 
ill intent behind any of that.
    Mr. Cummings. So you're still looking into that?
    Mr. Camus. Yes, sir.
    Mr. Cummings. All right. Thanks.
    Chairman Chaffetz. If the gentlewoman would yield.
    Is there any evidence that there was an attempt to erase 
any of the tapes?
    Mr. Camus. At this point, I don't want to make any 
conclusions. I believe that some tapes were erased, but I don't 
have--I'm not to the point in my investigation where I can 
explain that without jeopardizing my ability to----
    Chairman Chaffetz. Fair enough.
    Mr. Camus [continuing]. Figure out if it was done on 
purpose.
    Chairman Chaffetz. And as the gentlewoman's time expires 
here, one of the reasons that we're doing this update, one of 
the things that causes us great concern is that, back at the 
Super Bowl, you know, the Super Bowl, the President is 
interviewed by Bill O'Reilly; he said there's not even a 
smidgeon of corruption here.
    Nobody else has come to conclusions. We still have 
outstanding questions from the Department of Justice, from the 
Inspector General, from Congress. Somehow the President came to 
this conclusion. Fascinated to hear someday how in the world he 
thinks he can come to that conclusion without the facts.
    But there is a lot of evidence, and Congress plays a role. 
We can't simply sit back. We are, too, also doing an 
investigation. And we have repeatedly--repeatedly had the 
Commissioner of the IRS come here and tell us a whole variety 
of stories that, based on the testimony we hear today, that 
ain't true. And that's why we continue to investigate.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for being here.
    I was talking to a gentleman from Kentucky the other day, 
Mr. Phillips, and he was asking me, well, why can't we just get 
all the emails from everybody else that communicated with Ms. 
Lois Lerner?
    And I think just a few minutes ago you were saying there 
were five other people that were central to this investigation 
that we've lost their emails. Is that correct, Mr. Camus?
    Mr. Camus. We were looking into a total of possibly up to 
seven.
    Mr. Meadows. So seven potential people who, miraculously, 
their emails just disappeared. And so now you're looking for 
the backup tapes, like you have found with Ms. Lerner?
    Mr. Camus. Yes. We're trying to account for every single 
email for every one of the individuals that would have been 
considered a custodian.
    Mr. Meadows. Yes. So have you found some of those at this 
point, or you're still in the process?
    Mr. Camus. We're still in the process, sir.
    Mr. Meadows. All right.
    Do you find it very ironic that there would be testimony 
here, at that very table where you're sitting today, a number 
of times saying that there are no backup tapes, they're gone, 
all the backup tapes, we've looked, we can't find them? Do you 
find that as ironic, that you were able to find them so easily? 
And I'm talking about your personal opinion. Do you find that 
ironic?
    Mr. Camus. We're trained investigators, and we don't 
assume----
    Mr. Meadows. So you don't find anything ironic.
    Mr. Camus. Oh, we didn't assume anything, Mr. Meadows.
    Mr. Meadows. Well, if you were sitting in my position----
    Mr. Camus. Yes.
    Mr. Meadows [continuing]. Or, more importantly, if you were 
the American people, would you believe that Congress had been 
misled that there was an exhaustive research for these backup 
tapes? Would that be a logical conclusion for me to draw?
    Mr. Camus. I could certainly see how somebody could draw 
that conclusion.
    Mr. Meadows. So you could see how the American people would 
think that we have been misled.
    So, today, if nothing more comes out of this hearing, the 
hearing--the title should be, ``Congress was misled about 
backup tapes.'' Would you agree with that? Would that be an 
accurate title?
    Mr. Camus. As an investigator, I would have to lay against 
and literally look at everything that's been said and put in 
record and then compare it to what I know as of today and, 
also, hopefully, complete my investigation. I would probably 
know much better when I'm finished.
    Mr. Meadows. All right. Well, you would know much better 
when you're finished as to the conclusion of that. But, 
certainly, as of today, we've been mislead.
    Do you think new information has come out from this hearing 
that we didn't know about prior to this hearing? How about 
that. That's an easier one, isn't it?
    Mr. Camus. Yes.
    Mr. Meadows. So we have new information today that you 
uncovered that you've shared with Members of Congress.
    Because my colleagues over on the other side, you know--and 
some of them are new. And as we go back, we must remember--I 
haven't always been kind to you, Mr. George, have I?
    Mr. George. You have been fair.
    Mr. Meadows. OK. Well, thank you for being gracious. But, 
at the same time, we will ask piercing questions on why this is 
done.
    And so I'd like to put up a slide, because I found this 
very ironic and would just--it hit when the gentlewoman across 
the aisle talked about June the 29th. And this is an email from 
June the 29th when Lois Lerner got briefed. And I didn't put 
those two together, but it's dated that same exact day. And 
it's an email from Lois Lerner that's sent to two of her 
colleagues. And she says, ``No one will ever believe that both 
your hard drive and mine crashed within a week of each other. 
Isn't that strange?''
    Would you agree that that's strange?
    Mr. Camus. I would agree that----
    Mr. Meadows. I would agree that it's strange.
    I would think that it would be even stranger that those 
hard drives crashed 10 days after Lois Lerner was informed from 
Chairman Camp that he wanted to know what's happening with the 
targeting of Tea Party groups.
    Wouldn't you find that strange--or very coincidental? Let's 
put it that way.
    Mr. Camus. I would agree with you. Very coincidental.
    Mr. Meadows. So if we have that and we have all of this, 
what you would say as an investigator, circumstantial evidence, 
shouldn't we look a little bit deeper for those emails? And 
shouldn't we, in a bipartisan fashion, be extremely happy with 
the fact that you're bringing--that you found evidence that 
wasn't previously available to us?
    Mr. Camus. Yes.
    Mr. Meadows. So you've brought evidence now, you have 
evidence now that may not have been intentionally withheld from 
you but certainly wasn't volunteered to you--because we've had 
all kinds of reports. Mr. George has already given me all kinds 
of reports. And you know what? Those emails were missing. And 
they didn't even tell him that they were missing; he had to 
find those. And you had to find the tapes.
    Wouldn't you think that we would draw some kind of a 
conclusion that we had been misled?
    I can see my time has expired, so I'll yield back to the 
chairman, and I thank his patience.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the ranking member, the gentleman from 
Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. With all due respect to my colleague, Mr. 
Meadows, the claims that he has made just now were given three 
Pinocchios by The Washington Post.
    I want to enter into the record an article dated June 24, 
2014, ``The Letter That Supposedly Led to the Crash of Lois 
Lerner's Hard Drive.''
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you.
    Mr. George and Mr. Camus, I really want to get to the 
bottom of this, because, you know, Mr. George, I don't want you 
to--I mean, I know some of my colleagues apparently filed 
something against you, a complaint, but there's some deeper 
stuff going on here, and I just want to understand what is 
happening.
    In May 2013--and this troubles me a lot--Mr. George, you 
issued your report on the treatment of tax-exempt applicants. 
Your report was extremely controversial because Republicans 
used it to argue that this was a political targeting against 
conservative groups.
    But just a few days before you issued your report, the man 
sitting next to you, your deputy IG for investigations, Mr. 
Camus, sent an internal email to your senior staff saying that 
this was not political targeting.
    I would like to put the email up on the screen. The email 
is dated May 2, 2013. And in the very first line, it says he 
had a conversation with you and they pulled more than 5,000 
emails to see if there was any evidence of political 
motivation.
    Then he says this, ``The emails indicated the organizations 
needed to be pulled because the IRS employees were not sure how 
to process them, not because they wanted to stall or hinder the 
application. There was no indication that pulling these 
selected applications was politically motivated.''
    So, Mr. George, are you aware of this email and did you 
know about it at the time?
    Mr. George. I am very much aware. And I really want to 
thank you tremendously for affording myself, as well as Mr. 
Camus, the opportunity to put in the right context why he wrote 
that email.
    Mr. Cummings. All right. Well, maybe you--let me just 
continue. And I'm going to get--I want him to do that, because 
it is troubling.
    The email also says,--it says, ``The email traffic 
indicated that there were unclear processing directions, and 
the group wanted to make sure that they had guidance on 
processing the applications, so they pulled them.'' And then it 
says this: ``This is a very important nuance.''
    Now, I'm going to give you a chance to explain it, but I 
just want to finish. Mr. George, your deputy inspector general 
for investigations called this point a very important point, 
and yet it's not included in your report just 2 weeks later. 
And why was that?
    Mr. George. Sir, again, I think it would really benefit the 
Committee to, one, get the context in which that email was 
drafted--and, ironically, the staffer who made the call not to 
include it in the report is seated behind me, so we can give 
you a complete answer here.
    Mr. Cummings. All right. Go ahead.
    Mr. Camus. Mr. Cummings, I----
    Mr. Cummings. And, by the way, I think that this is such an 
important point, that since the staffer isn't sworn in, if we 
need additional information, I'm sure that we can swear him in. 
I just wanted an answer.
    But go ahead. Because it is quite interesting. Go ahead.
    Mr. Camus. While the audit staff was looking into the audit 
and finishing up their audit work, they believed that somebody 
had said that there was a directive email causing the selection 
of those applications for improper treatment. They didn't know 
who sent the email; they had just heard a rumor that such an 
email existed.
    So they brought it to my office, and they asked if we would 
open an investigation, at which point I declined to do so 
because I believed the audit of the process was the appropriate 
treatment stream, and I had no reason to believe that there had 
been any criminal activity.
    But I agreed to take a quick look at some of the emails of 
the individuals involved in pulling the applications to do a 
test to see if we found anything that jumped out at us that 
would indicate there was, in fact, criminal activity. So it was 
a very small sample, five individuals who were key to the whole 
situation. And we used keyword search terms that were provided 
from our audit staff.
    After we pulled the emails and we searched them with those 
keyword search terms, we determined that, based on all the 
traffic that we had seen from that limited sample, that there 
was nothing that rose to the level for our office to open a 
criminal investigation at that time.
    And that's why the email was drafted. It was in response to 
that, is there a, smoking-gun email out there that would 
indicate that there was any type of focus? It was not a full 
investigation, and we did look at a very minor sample.
    And that last sentence, that it's an important nuance, that 
was to share with the staff that, based on our quick peek of 
the emails that we were looking at, again, using a limited 
number of individuals and search terms, that there was no 
indication at that time, looking at that sample, that there was 
any indication of political motivation in that activity.
    Mr. Cummings. Mr. George, what--go ahead.
    Mr. George. Yes. And I'd like to ask Gregory Kutz--and I 
don't know what the protocol is, Mr. Chairman, as to whether or 
not----
    Chairman Chaffetz. The protocol is such that we will only 
hear from members who have been sworn in at the Committee. And 
in fairness to all members, we are only going to make available 
for public comment those that all members on this committee 
have had an opportunity to question.
    So we will leave the answers to Mr. George and Mr. Camus. 
If there is an appropriate time to followup with the individual 
staffers, I would welcome the minority and majority to both. 
But we need to leave the testimony with both Mr. George and Mr. 
Camus.
    Mr. Cummings. Mr. Chairman, I would like a--can I get a 
written response on that?
    Mr. George. I was just going to ask if----
    Mr. Cummings. Yes. Give me a written response in detail. 
Make sure you get it to the chairman, too. Because we are 
bipartisan here.
    Mr. George. Yes. Yes.
    Chairman Chaffetz. In the spirit of doing that, the 
timeframe in which you do it, in the next 2 weeks, is that 
fair?
    Mr. Cummings. We should be able to get it this week. You 
know he's writing it now.
    Chairman Chaffetz. He's writing it now. All right.
    If he can get this to the Committee in the next few days, 
that would be most appropriate. And we may have it before the 
end of the hearing.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. All right.
    I will now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent that the following 
article be entered into the record. It responds to this 
Pinocchio claim about the letter that was sent by Dave Camp 10 
days before Lois Lerner's hard-drive crash.
    Chairman Chaffetz. This is the National Review article, 
June 25, 2014.
    Without objection, so ordered.
    Mr. DeSantis. And it makes the point that the letter didn't 
specifically say ``targeting conservative groups,'' that's 
true, but what it did say was that they were concerned that the 
IRS was targeting donors to conservative groups and (c)(4) 
groups. And so, either way, Lois Lerner would have been the 
person who would have been implicated in that.
    And I think the article does a good job of showing why the 
Washington Post analysis was suspect.
    Man, if I received a subpoena or the government asked me to 
produce some documents and I said, ``Sorry, they're 
destroyed,'' and then it turned out someone could just walk 
down 10 days later and find them all, man, I'd be in a world of 
trouble; 300 million Americans would be in a world of trouble. 
And yet, here, the IRS, you know, they don't care. Commissioner 
Koskinen, he's been offended, almost, that we ask him questions 
about this stuff.
    And to look back at his testimony now, with him saying over 
and over again that those emails were destroyed, the tapes were 
gone, ``Sorry, guys,'' and then to know what was found very 
easily by the IG, it is stunning.
    And it's very upsetting, because we're supposed to live in 
a republican form of government based on law, in which the 
people who are in positions of power are still subject to the 
law. And, indeed, I think people like Koskinen should have a 
higher standard than the average American. Instead, this is a 
lower standard. This type of production would never be 
acceptable outside of Washington, DC. It's very, very 
frustrating.
    Mr. Camus, you seized the tapes July 1, 2014. Later that 
month, you submitted an affidavit for a case in the district 
court of the District of Columbia. It was the True the Vote 
case, and part of the issue was the production of these emails 
and the backup tapes.
    Do you recall working with the Department of Justice on 
that?
    Mr. Camus. I do.
    Mr. DeSantis. And you submitted an--I think you signed your 
affidavit on July 17, 2014?
    Mr. Camus. That sounds accurate.
    Mr. DeSantis. And then it was filed in the district court 
on July 18, 2014.
    So, in between July 4 and the time you executed that 
affidavit, you were in contact with attorneys for the 
Department of Justice?
    Mr. Camus. That is correct.
    Mr. DeSantis. And did they ask you about the status of the 
backup tapes?
    Mr. Camus. They asked us about the status of our efforts to 
recover email. I think it was a FOIA litigation, and so any 
emails that we uncovered would be pertinent to FOIA. So they 
asked for us to give them a status on did we find new emails 
and, if not, when we would have them from our search.
    Mr. DeSantis. So did you update them that there were backup 
tapes filed and that you were going to look into pulling emails 
off those tapes?
    Mr. Camus. I can't recall at that point if we knew. I don't 
think we saw any emails until November. So, in July, I don't 
believe I was aware that we were going to be able to actually 
see any emails.
    Mr. DeSantis. So you just knew you had the backup tapes?
    Mr. Camus. We knew that we had the--when we went to the IRS 
and we asked for the backup tapes, I knew that they had 
provided 744 of the backup tapes.
    Mr. DeSantis. OK.
    And you discussed the case with Joseph Sergi at the DOJ? Is 
that the attorney you worked with?
    Mr. Camus. Yes, sir.
    Mr. DeSantis. OK.
    So they filed a pleading in that case, and I think it bears 
the Committee to followup on that, because I'm not sure some of 
the representations made by the Department of Justice--well, 
they're certainly not consistent with the facts as we know now, 
but I don't know that they are consistent with the facts as 
they would have known at the time. So I think that that bears 
investigation, and I think that the Committee needs to look 
into it.
    This is really, really frustrating me. And this has been 
going on now for almost 2 years--almost 2 years. And you have 
somebody who's held in contempt--oh, let me ask just really 
quickly.
    I noticed on this brief that the U.S. attorney for the 
District of Columbia, Ron Machen, was listed of counsel. Have 
you had any interactions with U.S. Attorney Machen in this 
case?
    Mr. Camus. No, sir.
    Mr. DeSantis. OK.
    And so Lois Lerner is held in contempt. Statutes say when 
you're held in contempt of Congress, you're going to a grand 
jury at the District of Columbia in Federal district court. 
Nothing's happened. Nothing's happened at all. That's coming up 
on almost a year here in a couple of months.
    And so we have a situation where I think the IRS has 
figured they can systematically try to thwart our efforts and 
there's just not going to be any consequences. And I think that 
needs to be change. I think the Congress needs to stand up on 
behalf of the American people for the truth, and I don't think 
we can allow this to continue to go on the way it has.
    And I yield back.
    Chairman Chaffetz. I thank the gentleman. Impressed with 
his timeliness in his questioning.
    And now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I imagine it's tough sometimes being on the other side of 
the panel but do appreciate it and certainly respect your 
forthrightness there, for both Mr. Camus and Mr. George.
    I do want to target just a little bit Mr. George.
    How long have you worked in this environment, whether it be 
an inspector general or just overall in the government?
    Mr. George. I started, believe it or not, at the age of 17 
as an intern for then-Senator Bob Dole and have been working on 
and off in government for over almost 25 years.
    Mr. Walker. Yes. And I don't want to be too self-serving, 
but how would you say your record is over that time?
    Mr. George. I've been told that I have a good reputation, 
sir.
    Mr. Walker. OK. Is there anything partisan about your 
meeting with the former Chairman Issa or even with the current 
Chairman Chaffetz, in your opinion?
    Mr. George. No, only in that I was not informed in advance 
that there would not be representation from the minority side.
    There is no question that, once this became obvious to me, 
that one side was holding meetings and not including the other, 
we immediately--and, again, I would ask for a little bit of 
flexibility in the use of that word, but we did change our 
practice and our policies. Because there is no question that 
the ranking member and the chairman and others are correct; we 
have an obligation to report to both sides.
    Mr. Walker. Right. Have they ever contacted you about 
having a meeting with them? And if so, do you remember?
    Mr. George. I do recall getting a letter from the ranking 
member about complaining that they were being excluded, and 
that helped.
    Mr. Walker. Would you have met with them if they asked?
    Mr. George. Would I have met with them? Of course. And we 
have.
    Mr. Walker. All right.
    And before, I guess, this setting that we're facing with 
right now, particularly in this whole hearing, have you ever 
been accused of being partisan before in your time?
    Mr. George. Never.
    Mr. Walker. OK.
    Why do you think you're the target of that? The feeling 
that I'm getting tonight is that, rather than the IRS and some 
of these issues, that you guys are sort of, kind of, a target. 
In your opinion, why do you think that is?
    Mr. George. As one of the Congressmen mentioned, this is 
very difficult situation, and it's unprecedented for my 
organization and for me in my professional career to have had 
this type of interaction and level of attention, sir, to an 
issue that is of extreme importance to the American people.
    The Internal Revenue Service is the revenue-gathering 
entity of the most important Nation in the world. We have a 
voluntary compliance system. People have to have trust in that 
system. And this issue raised questions about trust.
    Mr. Walker. Most definitely, it does. In fact, tonight I've 
heard, and I guess in respect, in describing you, I've heard 
the words, ``questionable,'' ``partisan,'' you're ``under 
investigation.''
    In May 2012, from my understanding, there was nearly a year 
that goes by before you were even reporting publicly. To me, if 
you were truly partisan, would you not, in the 2012 elections, 
have said something or done something outwardly that would have 
made their case?
    Mr. George. We would have done whatever the law requires. 
And, again, we have had an extraordinary reputation, sir, 
``we'' being at TIGTA--and, really, forgive me for taking your 
time, but the men and women who work for me are some of the 
most topnotch Federal workers I have ever interacted with. And 
they are doing yeoman's work here, putting in literally 24 
hours a day on this very issue, some of them.
    So, you know, we would have reported what the law required 
us to report and would not have reported what was inappropriate 
at that time.
    Mr. Walker. Sure.
    And being new here, it's important for me to make sure the 
people that are in the panel are rock-solid, they are not 
partisan. And I believe everybody in the room would agree with 
that. But I will tell you, I can hear even from your voice and 
your heart and your passion, I have a lot of confidence that 
you are doing the right job. Thank you for your work, and Mr. 
Camus.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman, Mr. Carter from Georgia, for 
5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank you all for being here. The hour is late. I know, 
if you're like me, you're tired. But let me, again, thank you 
for being here, and thank you specifically--it's never been the 
question in my mind whether or not it was--that it was 
duplicate material that you found, but, instead, the point is 
you found it.
    So I want to talk about that specifically. What prompted 
you--were you asked to look for it?
    Mr. Camus. Yes, sir. By letter from Senate Finance 
Committee, they specifically asked us to recover any emails 
that we possibly could.
    Mr. Carter. OK. So that's what was the impetus for you to 
start looking for it.
    Mr. Camus. Correct.
    Mr. Carter. And you found it, as you testified, in, what, 
15 days?
    Mr. Camus. Yes. What we found were--and it's important to 
note that what we found were a population of emails that were 
relevant to the investigation, but we have yet to determine, 
until we do the match, whether or not it's new email.
    Mr. Carter. But the point still remains is that you found 
emails that we have been--that previous testimony had said that 
were lost and couldn't be found. That is the point, correct?
    Mr. Camus. We believe we did find some unique emails, but 
we won't----
    Mr. Carter. OK.
    Mr. Camus. We won't know that until----
    Mr. Carter. I understand. I understand. I'm with you on 
that.
    All right. I want to talk about standard operating policy, 
which--I'm in business, so that's important to me, that we are 
following SOP and best practices. I mean, all of that type of 
thing is very important.
    Where the emails were being stored, was it in somewhat of a 
unique place? Or was it standard, that you would expect for 
them to be here?
    Mr. Camus. The 744 tapes that we initially obtained on July 
1 were in the backup system of the IRS Microsoft Exchange 
Server. So they were right where you would expect them to be.
    Mr. Carter. Right where you would expect them to be.
    Mr. Camus. And when we demanded them to fit that period, 
that's what was supplied to us. Only until 2 weeks later do we 
find out--or only until 2 weeks ago do we find out that 
probably the tapes that we are actually looking for we were 
never told about, if that makes sense.
    Mr. Carter. Anyway. Let me ask you this. When someone's 
hard drive crashes, who do they report it to? I mean, 
obviously, you had to have a new computer, right?
    Mr. Camus. Correct.
    Mr. Carter. You had to put in a requisition that, hey, my 
hard drive has crashed, I got to have a new--was that done?
    Mr. Camus. Yes, it was.
    Mr. Carter. So everything was followed, right procedures. 
And that matches the timeframe with which Ms. Lerner is saying 
that her hard drive did indeed crash?
    Mr. Camus. Yes, I think the gentlelady asked earlier the 
date that her hard drive actually crashed. We believe it was 
June 11, 2011. It was reported on June 13, 2011, to the IT 
department.
    RPTR YORK
    EDTR HOFSTAD
    [9:42 p.m.]
    Mr. Carter. OK. So nothing unusual in that respect.
    Mr. Camus. Correct.
    Mr. Carter. OK.
    I also heard testimony that more than one hard drive had 
crashed and that it was--isn't that kind of unusual? I mean, 
all of a sudden, you've got a slew of hard drives crashing 
right around here.
    Mr. Camus. Yes, I can't comment on that right now, but we 
will probably take a look to see if that particular type of 
machinery, you know, the type of hard drives that they were, 
were susceptible to multiple crashes. But there were 
individuals that were in Ms. Lerner's business unit and that 
were involved in this case that had suffered hard-drive crashes 
about the same time.
    Mr. Carter. Again, just coincidence, I'm sure.
    But, nevertheless, again, thank you for being here tonight. 
Thank you for reporting this and for finding this. You know, I 
would congratulate you on being great inspectors and 
detectives, but it sounds like all you did was ask the right 
question.
    Mr. Camus. We are paid to ask good questions, sir.
    Mr. Carter. Great. Thank you.
    And I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. OK. I think some of these questions may be a 
followup from what was asked before. They're really for Mr. 
Camus, but we'll go through them again.
    Commissioner Koskinen testified that he had confirmed that 
Ms. Lerner's emails were unrecoverable. Have you had any 
findings so far regarding what the IRS did to confirm that 
information, that he would use the word that he had 
``confirmed'' it?
    Mr. Camus. What I know is what I've seen in documents that 
were provided, and, also, the other half of the equation that I 
know is what we were told when we attempted to recover the 
emails.
    Mr. Grothman. OK. So did they give you any idea as to why 
they would say it was confirmed, other than just wanting it to 
be confirmed?
    Mr. Camus. The only thing I could--that I could say is what 
we did was we didn't make any assumptions. We went and we 
questioned people who would have the material, and we ran it to 
the ground ourselves.
    Mr. Grothman. Yes, I know you did. But the question is, why 
would Commissioner Koskinen make that Statement? Do you, in 
your investigation, see any reason why he would have made that 
Statement?
    Mr. Camus. I don't know that. But we are continuing 
investigating that.
    Mr. Grothman. OK.
    Commissioner Koskinen testified before Congress that the 
backup-tape emails were unrecoverable. OK, that's what he said. 
Do you know why he would've said that? Or would that have been 
an accurate Statement?
    Mr. Camus. He could possibly believe that to be accurate, 
because they may not have looked as hard as we did.
    Mr. Grothman. OK. Did they give you any clue as to how hard 
he looked, or do you know why he would have made that 
Statement?
    Mr. Camus. I don't know why he would make that Statement. 
But I can tell you that, when we started our search, we asked 
the people that we were interviewing if anybody else had asked 
them to do the same type of the search that we had, and they 
said no.
    Mr. Grothman. OK. So you don't even know--based on your 
investigation, you did not unturn anything--or overturn 
anything that would indicate that they had made anything, any 
real investigation that you could determine.
    Mr. Camus. So far, we haven't seen that, but we're not 
finished with our investigation yet, sir.
    Mr. Grothman. OK. Thanks.
    I'll yield the rest of my time.
    Chairman Chaffetz. Thank the gentleman.
    Recognize the gentleman from Alabama, Mr. Palmer, for 5 
minutes.
    Mr. Palmer. I'm the guy you're looking for, the last one, I 
guess.
    Mr. Camus, back in 2010--well, I guess it may have been 
2013, information came out that indicated that Ms. Lerner had 
contacted the Department of Justice regarding the possibility 
of pursuing a criminal investigation into election crimes 
targeting 501(c)(4) organizations.
    Do you know if any of the tapes contain the emails that 
would cover that?
    Mr. Camus. I don't know that at this time, sir.
    Mr. Palmer. If that were in there--and I know this is a 
supposition, a hypothetical--but if it were in there, would 
that indicate an animus toward those groups, particularly in 
regard to what we believe was going on, denying certain 
501(c)(4) organizations the tax status that they were seeking?
    Mr. Camus. There could be emails that we uncover that do 
indicate that type of behavior, but until we get to the point 
where we find unique emails, it's hard to speculate.
    Mr. Palmer. I believe I should direct this to Mr. George. 
If not, Mr. Camus, you can answer it.
    But the timeline that's been referenced repeatedly tonight, 
that was based on the initial evidence that you got, the 
initial emails. Would it be possible that the timeline could 
change based on new evidence?
    Mr. George. Yes.
    Mr. Palmer. OK.
    We had several members of the--several inspector generals 
in before this committee a few weeks ago, and the hearing 
revolved around the fact that this administration had not 
always been forthcoming, various agencies not always been 
forthcoming with documents.
    Is there any indication that evidence or documents may have 
been withheld? In your investigation, have you had that 
problem?
    Mr. Camus. As we're not complete with our investigation 
yet, I can't draw a conclusion that anything has been withheld 
from us.
    Mr. George. And----
    Mr. Palmer. I just want--go ahead, Mr. George.
    Mr. George. Yes, sir. I was just going to add, too, that is 
the unique role that we have, we as IGs have, with the agencies 
that we oversee. Because if you don't ask the right questions 
and--you have some authority to subpoena certain things, but 
you can't force someone to speak to you, as of now. So it would 
be easy for an agency to fail to provide information if you 
don't pose the right question.
    Now, there is a proposal out there, I understand, that 
would change that and would give IGs additional authority. But, 
as Tim indicated, he could not give you a definitive answer at 
this stage.
    Mr. Palmer. Well, I have to wonder--obviously, the big 
issue is the supposedly erased emails or lost emails--but why 
the IRS didn't inform Congress sooner that they may have had 
the tapes that had the information on it and then whether or 
not they were forthcoming to the inspector general's office. 
Because I would assume that you were asking those questions.
    Mr. Camus. That is correct. And we will include that in our 
investigation.
    Mr. Palmer. My last question is--you mentioned seven 
individuals that--I'm not sure if it was you that mentioned it 
or Mr. Meadows or Mr. DeSantis, and it is getting late--that 
there were seven other individuals who may have missing emails, 
as well, that were in that communication circle.
    My question is, have you talked with them?
    Mr. Camus. We've included them in our investigation.
    Mr. Palmer. Have they secured counsel?
    Mr. Camus. I do not know that, sir.
    Mr. Palmer. OK.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    Now recognize the gentleman from Maryland, the ranking 
member, Mr. Cummings.
    Mr. Cummings. Mr. George and Mr. Camus, we've spent a lot 
of time on the conservative groups, and I want to go to--I 
mean, I'm concerned about the conservative groups, but I'm also 
concerned about the progressive groups. And I want to ask you 
about the status of your investigation, the one reviewing how 
progressive groups are treated.
    The report you issued in 2013, Mr. George, did not address 
progressive groups. When you testified here on May 23, 2013, we 
asked why you did not evaluate progressive groups, and you said 
this: ``Because those groups did not have the Be on the Lookout 
terms ``Tea Party,'' ``Patriot,'' or ``9/12'' in their names.''
    When we asked about specific reports that progressive 
groups were treated similarly to Tea party groups, you said 
this, ``I have subsequently received information that you're 
indicating may have occurred. And, as a result, we will be 
conducting a followup review to determine whether or not that 
is the case and, if so, the extent of it.''
    Do you remember that?
    Mr. George. I do, sir.
    Mr. Cummings. And when you came before us on July 18, 2013, 
we showed you internal documents indicating that progressive 
groups were subjected to similar types of scrutiny and they 
were also included in the training materials for the Be on the 
Lookout list.
    In response, you said this, ``We, just as recently as last 
week, received new information that is disturbing and that we 
need to pursue.''
    Do you remember that?
    Mr. George. I--yes, I vaguely recall that, sir.
    Mr. Cummings. So that was more than a year and a half ago, 
when you said you were going to do a new investigation to 
determine how progressive groups were treated. Can you tell us 
where that investigation stands today?
    Mr. George. Yes.
    What I can say is--and just to make sure that everything is 
clear, the IRS had different Be on the Lookout lists. And the 
list that we were initially charged with looking at was not a 
list that included--was a list that included the ``Tea Party,'' 
``9/12,'' ``Patriot'' groups.
    There was one tab, and people, for some reason--and I can 
understand why, because it wasn't focused on. There was a 
footnote in the original audit report that indicated that there 
were groups other than, ``conservative'' groups, but that was 
not the purpose of this review.
    And subsequent to all of that, with everything that's 
developed, I, at the request of Members of Congress, made a 
commitment that we would review the handling, the treatment of, 
``progressive'' groups by the IRS.
    So we are right now in the process of reviewing 17 other 
search criteria, including ``progressive,'' going back to 2004. 
And both majority and minority staffs have been briefed on 
this. And the timing is--OK.
    Apparently, all of this is tied in--and I was just 
informed, until the DOJ investigation is concluded, we won't 
have access to certain witnesses that are necessary to be 
interviewed, as it relates to this new review.
    Mr. Cummings. So you--there--have any witnesses been 
interviewed with regard to the progressive groups?
    Mr. George. Well, we're reviewing 600 cases, and so--have 
witnesses been interviewed?
    Not yet. Not yet.
    Mr. Cummings. And----
    Mr. George. We've identified 600 cases that we are going to 
look at, but we're stifled, we're stymied by the lack of 
conclusion of the FBI/Justice Department----
    Mr. Cummings. Now, I assume you've reviewed some documents 
with regard to the progressive groups. I guess you had to do 
that just to determine that there are witnesses that you needed 
to talk to, right?
    Mr. George. That's true. Yes, I've just been----
    Mr. Cummings. Do you know how many pages you've looked at 
or----
    Mr. George. What's this?
    Mr. Cummings. Do you know how many pages of documents 
you've looked at with regard to progressive groups?
    Mr. George. We do not know the answer to that, sir.
    Mr. Cummings. So you can't--it's hard for you to give us 
any idea as to when the progressive-group investigation will be 
complete; is that right?
    Mr. George. You know, generally, a review takes a year, 
sir, but given the importance of this matter, we'll put it on a 
fast track. But I cannot give you a time commitment at this 
stage.
    Mr. Cummings. But it seems like you don't even have control 
over it, because you said something about the other 
investigation going on.
    Mr. George. And that's part of the problem. We have 
absolutely no control over when the Justice Department will, 
you know, conclude their review so that we can have unfettered 
access to witnesses--unless you have information that I don't 
have?
    All right. That's the latest, sir.
    Mr. Cummings. Thank you very much.
    Mr. George. Mr. Chairman, I'm sorry to interrupt you, but I 
have that information in response to Mr. Cummings.
    Chairman Chaffetz. We're about to conclude this hearing. If 
you could come up and hand it to him, I think that would be 
very appropriate.
    Mr. George. Deal.
    Chairman Chaffetz. Thank you.
    Listen, the hour's late. I appreciate the staffwho's 
staying here working late, other Members that are here.
    And, certainly, we appreciate you and your testimony here. 
The work that you do within your organization is vital. It's 
important to Congress. Please let the men and women who work so 
hard day-in and day-out know that it is appreciated, it is 
needed, we do pay attention to it. And we thank them for their 
good, hard work.
    This committee stands adjourned.
    [Whereupon, at 9:56 p.m., the Committee was adjourned.]




                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
               
 

                                 [all]
</pre></body></html>
